1a
SLIP OPINION NO. 2020-OHIO-6832
THE STATE OF OHIO, APPELLEE, v.
WEBER, APPELLANT.
[Until this opinion appears in the Ohio Official
Reports advance sheets, it may be cited as
State v. Weber, Slip Opinion No. 2020-Ohio-6832.]
Criminal law—Second Amendment—R.C. 2923.15,
which prohibits a person from carrying or using a
firearm while under the influence of alcohol or a
drug of abuse, is not unconstitutional as applied to
an intoxicated person carrying a firearm in his or
her home.
(No. 2019-0544—Submitted February 25, 2020—
Decided December 23, 2020.)
APPEAL from the Court of Appeals
for Clermont County,
No. CA2018-06-040, 2019-Ohio-0916.
-----------------------------------------------------------------------

O’CONNOR, C.J.
{¶ 1} It has been illegal to carry a firearm
while intoxicated in Ohio since 1974. R.C. 2923.15,
Am.Sub.H.B. No. 511, 134 Ohio Laws 1866, 1968 (effective January 1, 1974). This case presents the question whether the right to bear arms contained in the
Second Amendment to the United States Constitution
includes the right to carry a firearm while intoxicated,
making Ohio’s statute unconstitutional. We hold that
it does not. We therefore affirm the judgment of the
Twelfth District Court of Appeals.

2a
I.

BACKGROUND

{¶ 2} At 4:00 a.m. on February 17, 2018, appellant,
Frederick Weber, was very intoxicated and holding a
shotgun. His wife called 9-1-1. Deputy Christopher
Shouse and Sergeant Mark Jarman were dispatched to
Weber’s house. When they arrived, Weber’s wife told
them, “Everything is okay, he put it away.” But when
Shouse stepped inside the house, he encountered Weber still holding the shotgun by the stock with one
hand. Shouse ordered him to drop the gun. Shouse also
heard Weber say, in slurred speech, that the firearm
was not loaded.
{¶ 3} Shouse attempted to assess Weber’s sobriety
by performing a field sobriety test, but Weber could not
complete the test because he was unable to follow
Shouse’s directions. Shouse also noticed the smell of
alcohol on Weber, and Weber admitted several times
that he was drunk. According to Shouse, Weber was
“very intoxicated.” When Shouse asked Weber why he
had the shotgun, Weber seemed confused and could not
give a definitive answer. Shouse picked the shotgun up
and determined that it was unloaded. Weber later
claimed that he was unloading the shotgun to wipe it
down.
{¶ 4} Jarman observed that Weber’s speech was
slurred and his eyes were glassy and bloodshot. Weber
was also unstable on his feet. According to Jarman, “he
was actually swaying while [Shouse] had him in the
instruction position.” Jarman described Weber as
“[v]ery impaired” and “highly intoxicated.”

3a
{¶ 5} Weber was charged with violating R.C.
2923.15(A), which provides that “[n]o person, while under the influence of alcohol or any drug of abuse, shall
carry or use any firearm or dangerous ordnance.” A violation of this provision is a first-degree misdemeanor.
R.C. 2923.15(B). After a bench trial, Weber was found
guilty and sentenced to ten days in jail, with all ten
days suspended. He was also placed on community control for one year, ordered to complete eight hours of
community service, and fined $100. The Twelfth District Court of Appeals affirmed his conviction.
{¶ 6} Weber raised four propositions of law in a
discretionary appeal to this court. We accepted three
for review. See 156 Ohio St.3d 1452, 2019-Ohio-2780,
125 N.E.3d 941.
Proposition 1: “The using a weapon while
intoxicated statute is unconstitutional as applied to the facts of this case.”
Proposition 2: “Where a challenge is made
that a statute unconstitutionally impinges on
the fundamental right to bear arms, review is
undertaken employing a strict scrutiny standard.”
Proposition 3: “Under any of the standards of scrutiny applied to enumerated constitutional rights, a prohibition of having
firearms while intoxicated in the home—
where [the need for] defense of self, family and
property is most acute—fails [to pass] constitutional muster.”

4a
In all three propositions, Weber argues that R.C.
2923.15 violates the Second Amendment to the United
States Constitution as applied to the facts of this case.
II.

APPLICABLE LAW

{¶ 7} The constitutionality of a statute is a question of law that we consider de novo. See Cleveland v.
State, 157 Ohio St.3d 330, 2019-Ohio-3820, 136 N.E.3d
466, ¶ 15.
A.

District of Columbia v. Heller

{¶ 8} The Second Amendment provides that “[a]
well regulated Militia, being necessary to the security
of a free State, the right of the people to keep and bear
Arms, shall not be infringed.” The United States Supreme Court held in District of Columbia v. Heller, 554
U.S. 570, 128 S.Ct. 2783, 171 L.Ed.2d 637 (2008), that
the Second Amendment protects a person’s right to
possess and carry weapons for self-defense. But the
court did not hold in Heller that every regulation impairing the possession or carrying of weapons in some
way is automatically unconstitutional. Heller makes it
clear that “[l]ike most rights, the right secured by the
Second Amendment is not unlimited. From Blackstone
through the 19th-century cases, commentators and
courts routinely explained that the right was not a
right to keep and carry any weapon whatsoever in any
manner whatsoever and for whatever purpose.” Id. at
626.

5a
{¶ 9} The Supreme Court emphasized that “nothing in [the opinion] should be taken to cast doubt on
longstanding prohibitions on the possession of firearms by felons and the mentally ill, or laws forbidding
the carrying of firearms in sensitive places such as
schools and government buildings, or laws imposing
conditions and qualifications on the commercial sale of
arms.” Id. at 626-627. The court also made clear that it
does not “suggest the invalidity of laws regulating the
storage of firearms to prevent accidents.” Id. at 632.
And the court recognized “another important limitation on the right to keep and carry arms,” id. at 627:
the Second Amendment protects only the sort of weapons in common use at the time of the Amendment and
only when such a weapon is used “for lawful purposes
like self-defense,” id. at 626.
{¶ 10} After this discussion of the Second Amendment, the court turned to the statute at issue in the
case. The District of Columbia had generally prohibited the possession of handguns and required even
lawfully owned firearms, such as registered long guns,
to be “unloaded and dissembled or bound by a trigger
lock or similar device” unless they were located in a
place of business or were being used for lawful recreational activities, former D.C.Code 7-2507.02, 23
D.C.Reg. 2464 (Sept. 24, 1976). The majority observed
that the law “totally ban[ned] handgun possession in
the home” and required any lawful firearm in the home
to be rendered inoperable. Heller at 628. The law therefore barred “ ‘the most preferred firearm in the nation’ ”
from being used in self-defense of “ ‘one’s home and

6a
family.’ ” Id. at 628-629, quoting Parker v. District of
Columbia, 478 F.3d 370, 400 (D.C.Cir.2007). Such a “severe restriction,” id. at 629, the court held, violated the
Second Amendment “[u]nder any of the standards of
scrutiny that we have applied to enumerated constitutional rights,” id.
{¶ 11} The majority also acknowledged that because the case represented the Supreme Court’s “first
in-depth examination of the Second Amendment, one
should not expect it to clarify the entire field.” Heller,
554 U.S. at 635, 128 S.Ct. 2783, 171 L.Ed.2d 637. The
decision therefore did not conclusively determine “applications of the right” to other regulations or provide
“extensive historical justification for those regulations
of the right that [it] describe[d] as permissible.” Id.
{¶ 12} Subsequently, the court held that the Second Amendment right recognized in Heller is applicable to the states. McDonald v. Chicago, 561 U.S. 742,
791, 130 S.Ct. 3020, 177 L.Ed.2d 894 (2010).

B.

Cases since Heller: the two-step framework

{¶ 13} After Heller was decided, one of the main
tasks for courts presented with Second Amendment
challenges to firearm regulations was deciding which
analytical framework to use. Over the past 12 years,
courts have converged on a two-step framework to decide Second Amendment cases. Kolbe v. Hogan, 849
F.3d 114, 132-133 (4th Cir.2017) (en banc) (identifying
decisions from the Second, Third, Fourth, Fifth, Sixth,

7a
Seventh, Ninth, Tenth, Eleventh, and D.C. Circuits applying the two-step approach); Gould v. Morgan, 907
F.3d 659, 669 (1st Cir.2018) (adopting the two-step approach after Kolbe was decided).
{¶ 14} In the first step of the framework, courts
ask whether “ ‘the challenged statute “regulates activity falling outside the scope of the Second Amendment
right as it was understood at the relevant historical
moment,” ’ ” namely, the ratification of the Bill of Rights
in 1791 or of the Fourteenth Amendment in 1868.
Stimmel v. Sessions, 879 F.3d 198, 204 (6th Cir.2018),
quoting United States v. Greeno, 679 F.3d 510, 518 (6th
Cir.2012), quoting Ezell v. Chicago, 651 F.3d 684, 702703 (7th Cir.2011). If the regulation falls outside the
scope of the Second Amendment, the “inquiry is complete,” and the law cannot be determined to violate
that Amendment. United States v. Marzzarella, 614
F.3d 85, 89 (3d Cir.2010); accord Stimmel, 879 F.3d at
204.
{¶ 15} If the reviewing court moves on to the
second step, it should “determine and apply the appropriate level of heightened means-end scrutiny” based
on whether and how severely a particular law burdens
the core Second Amendment right.1 Stimmel, 879 F.3d
at 204; see also Natl. Rifle Assn. of Am., Inc. v. Bur. of
Alcohol, Tobacco, Firearms, & Explosives, 700 F.3d
185 (5th Cir.2012) (“In harmony with well-developed
1

Although the Heller court stated that the regulation at issue was unconstitutional under any standard, it specifically rejected the possible application of rational-basis scrutiny. Heller,
554 U.S. at 628, 128 S.Ct. 2783, 171 L.Ed.2d 637, fn. 27.

8a
principles that have guided our interpretation of the
First Amendment, we believe that a law impinging
upon the Second Amendment right must be reviewed
under a properly tuned level of scrutiny—i.e., a level
that is proportionate to the severity of the burden that
the law imposes on the right”).
{¶ 16} If the challenged law does not severely burden the core of the Second Amendment’s protections,
the court should apply intermediate scrutiny. See
United States v. Chester, 628 F.3d 673, 680-683 (4th
Cir.2010). Or, as the Sixth Circuit has put it, “in choosing to apply intermediate scrutiny, we are ‘informed by
“(1) ‘how close the law comes to the core of the Second
Amendment right,’ and (2) ‘the severity of the law’s
burden on the right.’ ” ’ ” Stimmel, 879 F.3d at 206,
quoting Tyler v. Hillsdale Cty. Sheriff ’s Dept., 837 F.3d
678, 690 (6th Cir.2016) (lead opinion), quoting United
States v. Chovan, 735 F.3d 1127, 1138 (9th Cir.2013),
quoting Ezell at 703. Under intermediate scrutiny,
the statute is constitutional so long as it furthers an
important governmental interest and does so by
means that are substantially related to that interest.
Chester, 628 F.3d at 683. E.g., United States v. Yancey,
621 F.3d 681 (7th Cir.2010) (upholding 18 U.S.C.
922(g)(3), which prohibits possession of a firearm by
a person who is “an unlawful user of or addicted to
any controlled substance,” under intermediate scrutiny because “ample” evidence showed “the connection
between drug use and violent crime,” Yancey at 686,
and the statute was “substantially related” to the

9a
“important governmental interest in preventing violent crime,” id. at 687).
{¶ 17} If, however, a statute imposes a severe burden on the core of the Second Amendment right, the
court should apply strict scrutiny. See Marzzarella, 614
F.3d at 96-97. Under strict scrutiny, the statute is constitutional if it furthers a compelling governmental
interest and the state’s chosen means are narrowly
tailored to advance that interest. Fed. Election Comm.
v. Wisconsin Right to Life, Inc., 551 U.S. 449, 464, 127
S.Ct. 2652, 168 L.Ed.2d 329 (2007). E.g., Marzzarella,
614 F.3d at 100-101 (upholding a federal law prohibiting possession of a firearm with an obliterated serial
number under strict scrutiny because the law furthered a compelling governmental interest by assisting law enforcement in the investigation of crimes and
the law was narrowly tailored to achieve that objective,
because it applied only to weapons made less susceptible to tracing).
III.

ANALYSIS

A. The appropriate test for challenges to
firearm regulations under the Second Amendment
{¶ 18} In his initial brief, Weber argues that this
court should judge the constitutionality of R.C. 2923.15
using the strict-scrutiny test. In his reply brief, however, Weber argues for a different standard of review:
that “absent some legal disqualification (and [being]
drunk in your home is not one), the right to have arms
in your home is absolute.” Appellee, the state of Ohio,

10a
urges this court to apply the two-step framework described above.
{¶ 19} We believe that the two-step framework
provides the appropriate test for Second Amendment
challenges to firearm regulations, and we therefore apply it.2 The two-step framework also leaves room for us
to consider Weber’s arguments that strict scrutiny
should be applied to his claim and that intoxication is
not a “legal disqualification” from the protections of the
Second Amendment.
B.

The constitutionality of R.C. 2923.15
under the Second Amendment

1. Step one: does R.C. 2923.15 place a burden on
activity within the scope of the Second Amendment?
{¶ 20} The state argues that R.C. 2923.15 does not
place a burden on activity within the scope of the
Second Amendment. In support, the state and its amici
curiae cities of Columbus, Cincinnati, Akron, Dayton,
Lima, and Toledo cite a number of historical statutes
regulating the clear dangers presented by firearms
2

The opinion concurring in judgment only asserts that a majority of this court adopts the originalist approach it takes in this
case, and therefore, it is the approach to be taken by Ohio courts
in Second Amendment cases going forward. That is not correct.
The two-step test we apply in this opinion is supported by three
justices. As explained below, the dissenting opinion declines to
reach a conclusion using the originalist approach to evaluate the
court of appeals’ judgment or the proposition of law presented.
Thus, it cannot be considered to be part of any holding of this
court and has no controlling effect.

11a
and alcohol. For example, they point to a law from 1677
that imposed a fine on anyone that “shoot[s] any guns
at drinking.” Act of March 10, 1655, 1655 Va.Laws 401.
They point to laws from four states passed within
years of the ratification of the Fourteenth Amendment
that criminalized carrying a gun while drunk. See
1868 Kan.Sess.Laws 378; 1883 Mo.Laws 76; 1883
Wis.Sess.Laws, volume 1, 290; 1909 Idaho Sess.Laws
6, Section 1. They also point to state laws designed to
prevent intoxicated people from obtaining guns in the
first place by making the sale of guns to an intoxicated person illegal. See 1878 Miss.Laws 175-176;
1911 Del.Laws 28, Section 3. Overall, the state and its
amici curiae cities argue that these laws show that carrying or using a firearm while intoxicated is not a protected activity and does not fall within the original
understanding of the right to bear arms.
{¶ 21} Weber argues that R.C. 2923.15 does place
a burden on activity protected by the Second Amendment, pointing to the holding of Heller as support. But
Weber does not provide any developed argument addressing Heller’s recognition that the right to bear
arms is not unlimited. Specifically, Weber’s merits brief
is only six pages long, and he presents no historical
evidence and no discussion of how the original understanding of the right to bear arms relates to this case.
This is significant because the complete ban on handgun possession in the home that was at issue in Heller
is very different from the very limited ban in R.C.
2923.15, which prohibits only carrying or using a firearm while intoxicated. Weber simply does not address

12a
whether the statute falls within the original understanding of the right to bear arms.
{¶ 22} Although there may be good reason to find
that Weber’s challenge to R.C. 2923.15 fails at step one,
the absence of any developed argument by Weber on
that issue makes it difficult for this court to reach a
firm conclusion. Nonetheless, we see no real need to
decide this case solely on step one because, as we explain below, Weber’s challenge fails under step two. We
therefore take the approach of several other courts and
continue the analysis, assuming arguendo for this matter, that step one does not result in the conclusion that
R.C. 2923.15 regulates conduct outside the scope of the
Second Amendment. See Stimmel, 879 F.3d at 205 (proceeding past step one by assuming, without deciding,
that the Second Amendment applied to the law at issue); Chovan, 735 F.3d at 1137 (same); United States v.
Staten, 666 F.3d 154, 160-161 (4th Cir.2011) (same).
2. Step two: is R.C. 2923.15 unconstitutional based
on the application of heightened means-end scrutiny?
a. The constitutionality of R.C. 2923.15
should be judged using intermediate scrutiny
{¶ 23} Weber argues that R.C. 2923.15 should be
judged under the strict-scrutiny standard because the
right to bear arms is a fundamental right. He points to
our statement in Harrold v. Collier, 107 Ohio St.3d 44,
2005-Ohio-5334, 836 N.E.2d 1165, ¶ 39, that “[i]f the
challenged legislation impinges upon a fundamental

13a
constitutional right, courts must review the statutes
under the strict-scrutiny standard.”
{¶ 24} We are not persuaded by this argument.
Harrold did not involve a Second Amendment challenge to a firearm regulation. It involved a parent’s
claim that Ohio’s nonparental-visitation statutes “unconstitutionally infringe on a parent’s fundamental
right to make decisions concerning the care, custody,
and control of his or her child,” id. at ¶ 13, a right that
is protected by the Due Process Clause of the Fourteenth Amendment of the United States Constitution,
id. at ¶ 40, citing Troxel v. Granville, 530 U.S. 57, 66,
120 S.Ct. 2054, 147 L.Ed.2d 49 (2000), and Zivich v.
Mentor Soccer Club, Inc., 82 Ohio St.3d 367, 372, 696
N.E.2d 201 (1998). As the Sixth Circuit has observed,
however, “the ‘ “risk inherent in firearms” ’ distinguishes the right to keep and bear arms ‘ “from other
fundamental rights that have been held to be evaluated under a strict scrutiny test.” ’ ” Stimmel, 879 F.3d
at 206, quoting Tyler, 837 F.3d at 691 (lead opinion),
quoting Bonidy v. United States Postal Serv., 790 F.3d
1121, 1126 (10th Cir.2015).
{¶ 25} Weber also appears to argue that strict
scrutiny is warranted in this as-applied challenge because he was in his home at the time he carried the
shotgun while intoxicated and the home is a place
where the Second Amendment’s protections are at
their highest. We disagree.
{¶ 26} It is no doubt true that the core protection
of the Second Amendment at issue here is “the right of

14a
law-abiding, responsible citizens to use arms in defense
of hearth and home.” (Emphasis added.) Heller, 554
U.S. at 635, 128 S.Ct. 2783, 171 L.Ed.2d 637. But identifying that as the core of the Second Amendment right
is the beginning of the inquiry at this point, not the
end. As noted above, the level of scrutiny is determined
based on how close a particular law comes to the core
Second Amendment right and whether it imposes a
severe burden on that right. A court should apply intermediate scrutiny if the challenged law either does
not come close to the core of the right or imposes only
a slight burden on the right. But if the law imposes a
severe burden on the core of the Second Amendment,
it should be judged using strict scrutiny.
{¶ 27} R.C. 2923.15 does not come close to the core
of the right and imposes, at most, only a slight burden
on Weber’s Second Amendment right. The reason is
plain: intoxication impairs cognitive functions and motor skills, so an intoxicated person who attempts to
carry or use a gun in an otherwise lawful manner is
less likely to be able to do so safely and effectively and
instead presents a greater risk of harm to innocent persons in the area as well as himself or herself. By applying only to persons who are “under the influence of
alcohol or any drug of abuse,” R.C. 2923.15 therefore
regulates only the conduct of a person whose ability to
carry or use a gun safely and effectively has already
been undermined because of intoxication.
{¶ 28} The facts of this case establish a high level
of intoxication. According to the deputies who arrived
at his house, Weber was visibly “very” and “highly”

15a
intoxicated, smelled of alcohol, and spoke with slurred
speech. He also had bloodshot and glassy eyes, was
swaying from side to side, and could not even follow the
directions given to him for a field sobriety test. It cannot reasonably be denied that Weber’s choice to drink
until he was so highly intoxicated had a detrimental
impact on his ability to engage in self-defense, had it
been necessary for him to do so, and that impact is
what brings him within the scope of R.C. 2923.15.
{¶ 29} R.C. 2923.15 is also very limited in its application. The statute does not prevent someone who
consumes alcohol from owning a gun, nor does it prohibit a gun from being in a house or provide that a gun
must be rendered inoperable if someone in the house
is intoxicated. The statute also leaves persons who consume alcohol free to carry and use a gun in the home
for self-defense when they are not intoxicated. In fact,
the law does not even apply to a person carrying or using a gun while consuming alcohol—as long as the person is not intoxicated. (As discussed later in this
opinion, major gun manufacturers and the National
Rifle Association agree that it is unsafe to carry or use
a gun while having even a single drink of alcohol.)
Overall, R.C. 2923.15 is a targeted restriction that prohibits a narrow range of conduct (carrying or using a
gun) for a very limited period of time (while someone
is in a state of intoxication) due to the inherently dangerous nature of carrying or using a gun while in that
state.
{¶ 30} We also find it relevant that numerous
courts have applied intermediate scrutiny to regulations

16a
on guns—lifetime prohibitions on certain individuals
possessing a gun—that are far broader and more burdensome than is R.C. 2923.15. See, e.g., Stimmel, 879
F.3d at 206 (applying intermediate scrutiny to a complete prohibition on gun possession by individuals previously convicted of a misdemeanor crime of domestic
violence); Tyler, 837 F.3d at 690-693 (lead opinion)
(same as to a complete prohibition on gun possession
by certain individuals suffering from mental illness);
Yancey, 621 F.3d at 683 (applying intermediate scrutiny to a complete prohibition on gun possession by a
person who is “an unlawful user of or addicted to any
controlled substance”); United States v. Williams, 616
F.3d 685, 692-693 (7th Cir.2010) (applying intermediate scrutiny to complete prohibition on gun possession
by convicted felons). The scope of R.C. 2923.15 pales in
comparison to these lifetime prohibitions. In this light,
the burden placed on Second Amendment rights by
R.C. 2923.15 is, at most, only very slight.
b.

R.C. 2923.15 is constitutional under
intermediate scrutiny

{¶ 31} Under intermediate scrutiny, a statute is
constitutional so long as it furthers an important governmental interest and does so by means that are substantially related to that interest. Chester, 628 F.3d at
683. R.C. 2923.15 passes this test.
{¶ 32} Weber argues that R.C. 2923.15 does not
survive intermediate scrutiny and cites Heller, 554
U.S. at 628, 128 S.Ct. 2783, 171 L.Ed.2d 637, for the

17a
proposition that the need to have a firearm for self-defense is most acute in the home. The state, by contrast,
argues that the statute furthers the government’s legitimate interest in protecting people from harm from
the combination of firearms and alcohol.
{¶ 33} We agree with the state that R.C. 2923.15
furthers this important governmental interest. When
an intoxicated person carries or uses a gun, either at
home or outside the home, the impairment of cognitive
functions and motor skills can result in harm to anyone around the intoxicated person and even to the intoxicated person himself or herself.
{¶ 34} The facts here create a case in point in
which such harm might have occurred. Weber picked
up a shotgun while heavily intoxicated, which caused
his wife to call 9-1-1. Whether due to Weber’s reduced
inhibitions or impaired motor skills, Weber’s wife perceived a great enough risk to herself or to Weber to
make an emergency call. That risk was then extended
to the two deputies who rushed to the scene at 4:00
a.m., knowing only that an intoxicated man had a gun
and that his wife needed their help.
{¶ 35} It is also not hard to imagine other examples of the kind of harm the General Assembly has an
interest in preventing:
•

an intentional shooting of a friend, coworker, police officer, or other innocent person due to reduced
inhibitions, impulsivity, or a mood change caused
by intoxication;

18a
•

a suicide facilitated by reduced inhibitions, impulsivity, or a depressed mood caused by intoxication;

•

an accidental shooting by an intoxicated person
handling a gun who incorrectly believes the gun is
unloaded, or who accidentally pulls the trigger,
due to impaired cognitive functions or motor skills
caused by intoxication;

•

an accidental shooting involving a person who
mistakes a loved one arriving home for an intruder due to impaired cognitive functions caused
by intoxication; and

•

a shooting by a police officer of an intoxicated person who accidentally or intentionally points a gun
at the officer due to impaired cognitive functions
or motor skills caused by intoxication.

Each of these examples has happened in a home with
tragic results.
{¶ 36} The bases for the government’s interest are
more than merely anecdotal, as amici curiae Giffords
Law Center to Prevent Gun Violence and Brady Center
to Prevent Gun Violence point out. Research shows
that “people who abuse alcohol or illicit drugs are at an
increased risk of committing acts of violence.” Webster
& Vernick, Keeping Firearms from Drug and Alcohol
Abusers, 15 Injury Prevention 425 (2009). The victims
of such violence are often a gun owner’s family members or the gun owner himself. For example, “[d]rug
and alcohol use by domestic abusers has been
strongly linked with the perpetration of fatal and nonfatal domestic violence.” Id. at 425. “[A]n overwhelming proportion (70%) of [intimate-partner] homicide

19a
perpetrators were under the influence of substances
when the crime occurred, * * * and the use of alcohol
is a strong predictor of intimate terrorism of women.”
Darryl W. Roberts, Intimate Partner Homicide: Relationships to Alcohol and Firearms, 25 J.Contemp.
Crim.Just. 67, 70 (2009). Studies show that there is a
strong correlation between heavy drinking and self-inflicted injury, including suicide, from a firearm. See
Branas, Han & Wiebe, Alcohol Use and Firearm Violence, 38 Epidemiologic Reviews 32, 36 (2016). The
amici curiae cities also point out in their brief that
“[f ]or men, deaths from alcohol-related firearm violence equal those from alcohol-related motor vehicle
crashes.” Garen Wintemute, Alcohol Misuse, Firearm
Violence Perpetration, and Public Policy in the United
States, 79 Preventive Medicine 15 (2015).
{¶ 37} Even Remington Arms, a gun manufacturer that has been in business for over 200 years, embraces the concern as part of its Ten Commandments
of Firearm Safety: “Alcohol, drugs and guns are a
deadly combination. * * * A staggering percentage of
the shooting accidents that occur every year involve
alcohol or drugs.” Remington Arms Company, Ten Commandments of Firearm Safety, available at https://www.
remington.com/support/safety-center/ten-commandmentsfirearm-safety (accessed Sept. 25, 2020) [https://perma.cc/
NCD7-TDWB].
{¶ 38} Courts have also long recognized a state’s
legitimate interest in preventing those impaired by alcohol or by drugs from using guns. See State v. Waterhouse, 7th Dist. Belmont No. 93-B-26, 1995 WL 70125,

20a
*2 (Feb. 16, 1995); People v. Wilder, 307 Mich.App. 546,
561, 861 N.W.2d 645 (2014); Gibson v. State, 930 P.2d
1300, 1302 (Alaska App.1997); Roberge v. United
States, E.D.Tenn. Nos. 1:04-cr-70 and 1:10-cv-273, 2013
WL 4052926, *18 (Aug. 12, 2013).
{¶ 39} R.C. 2923.15 therefore seeks to further the
government’s important interest in using its police
power to prevent the harm that can arise from the combination of guns and alcohol. And the means chosen
here are substantially related to the government’s interest in preventing this harm. As explained above,
R.C. 2923.15 targets the governmental interest directly, applying only to individuals who are intoxicated. It is difficult to understand how the government
could have attempted to further that interest in any
other viable manner.
{¶ 40} We also reject Weber’s argument that the
governmental interest in preventing harm from the
combination of guns and alcohol is lower with respect
to conduct occurring inside a home because the need
for a gun for self-defense is most acute in the home.
“The danger to innocent persons is the same whether
the intoxicated person is inside his home or in a public
place.” Waterhouse at *2. This argument also confuses
the governmental-interest inquiry with the burden inquiry. We already considered the centrality of the home
to the Second Amendment when deciding what level of
scrutiny to apply, and that decision affected how strong
of a governmental interest the state is required to
show. If the law burdened the core of the right—selfdefense in the home—or otherwise imposed a severe

21a
burden on the right, we would apply strict scrutiny and
require the state to show that the law furthers a compelling governmental interest. But because we find
only a slight burden at best, the law requires the state
to meet a lower standard: an important governmental
interest. There is simply no basis for finding that the
governmental interest here is less strong because it
regulates conduct in the home when that governmental interest is being furthered through a statute that
regulates only the conduct of persons whose ability to
engage in self-defense in the home has been diminished by their decision to become intoxicated.
{¶ 41} To the extent that Weber’s argument is
based on a more general notion that the home is a private place and the government therefore has less of an
interest in regulating what people do there, we reject
that argument too. We cannot consider the conduct
regulated by R.C. 2923.15 in some general sense. R.C.
2923.15 regulates conduct that is inherently dangerous, and the governmental interest in preventing harm
from that conduct is strong, regardless whether the
government has an interest in regulating conduct in a
home that is not dangerous and outside the scope of
R.C. 2923.15.
{¶ 42} We similarly reject the contention that because R.C. 2923.15 regulates conduct inside a home, it
does not further the governmental interest in a way
that is substantially related to that interest. An intoxicated person’s home is often also the home of that person’s spouse and children and, as discussed above,
those persons are often the victims of violence because

22a
of the combination of guns and alcohol. Applying R.C.
2923.15 to activity within a home is therefore essential
for the General Assembly to protect family members,
public servants, and others from the harm that arises
when guns and alcohol mix. As noted above, the statute
is also extremely limited in how it applies in the home,
leaving Weber free to have a gun in his home at all
times and to carry that gun in his home once his cognitive abilities and motor skills return to normal and
he no longer presents a risk of harm to others and himself.
{¶ 43} The fact that R.C. 2923.15 applies to unloaded guns also does not impact its constitutionality,
as there is still a clear risk of harm from permitting an
intoxicated person to carry an unloaded gun. If an intoxicated person decides to shoot someone due to reduced inhibitions or a mood change, the need to load
the gun first may not impose a meaningful practical
barrier. Second, making a distinction between loaded
and unloaded guns for purposes of R.C. 2923.15 presumes that an intoxicated person can be expected to
accurately determine whether a gun is unloaded.
Given the impairment of cognitive functions and motor
skills caused by intoxication, however, the General Assembly can reasonably decide not to rely on that expectation to keep others in the house safe. In other words,
intoxicated persons may believe a gun is unloaded
when, in fact, it is not, which can lead to unintended
shootings. Tragically, this is confirmed by news reports
of accidental shootings in which the shooter later
states that he or she thought the gun was unloaded.

23a
Including unloaded guns within the scope of R.C.
2923.15 therefore furthers the government’s important
interest in preventing harm from the combination of
guns and alcohol through means that are substantially
related to that interest.
{¶ 44} This conclusion is not changed by the facts
that Weber’s shotgun was unloaded when the deputies
arrived and no harm was caused to anyone in this particular case. First, Shouse testified that Weber told him
he was unloading the shotgun to wipe it down, and Weber confirms this statement in his brief. This indicates
that Weber’s shotgun was loaded when he first picked
it up. Such conduct is plainly dangerous. Second, the
fact that Weber may have unloaded the shotgun while
intoxicated without shooting anyone in this particular
case does not diminish the General Assembly’s important interest in preventing harm through R.C.
2923.15. See Ohralik v. Ohio State Bar Assn., 436 U.S.
447, 468, 98 S.Ct. 1912, 56 L.Ed.2d 444 (1978) (holding
that “the absence of explicit proof or findings of harm
or injury [in the case before the court] is immaterial”
when the government has an interest in a prophylactic
rule designed to prevent harm before it occurs); United
States v. Edge Broadcasting Co., 509 U.S. 418, 430-431,
113 S.Ct. 2696, 125 L.Ed.2d 345 (1993), citing Ward v.
Rock Against Racism, 491 U.S. 781, 801, 109 S.Ct. 2746,
105 L.Ed.2d 661 (1989) (“we judge the validity of the
restriction in this [as-applied challenge] by the relation it bears to the general problem * * * not by the extent to which it furthers the Government’s interest in
an individual case”).

24a
{¶ 45} We also note that courts upholding far
broader and more burdensome laws—lifetime prohibitions on certain individuals possessing guns—have
not found that it made a difference that the laws were
applied in the home or to unloaded guns. See, e.g.,
Stimmel, 879 F.3d at 206 (upholding complete prohibition on gun possession by individuals previously convicted of a misdemeanor crime of domestic violence);
Yancey, 621 F.3d at 683 (upholding complete prohibition on gun possession by a person who is “an unlawful
user of or addicted to any controlled substance”); Williams, 616 F.3d at 692-693 (upholding complete prohibition on gun possession by convicted felons).
{¶ 46} Finally, major American gun manufacturers and the National Rifle Association agree that it is
unsafe to carry a gun while intoxicated, and they do
not make any distinction based on whether one is at
home or the gun is unloaded. See Sturm, Ruger & Company, Basic Safety Rules (“Avoid alcoholic beverages or
drugs when shooting or handling a gun”), available at
https://www.ruger.com/safety/basicSafetyRules.html
(accessed Sept. 25, 2020) [https://perma.cc/82N9-4TFZ];
Remington Arms Company, at First Commandment
(“Treat every gun as if it were loaded”), available at
https://www.remington.com/support/safety-center/tencommandments-firearm-safety (accessed Sept. 25, 2020)
[https://perma.cc/NCD7-TDWB]; Browning, Firearms
Safety Depends on You at 2 (“Alcohol * * * & guns don’t
mix”), available at https://www.browning.com/content/
dam/browning/support/safety-recall/FSDOY.pdf (accessed Sept. 25, 2020) [https://perma.cc/L5TY-TXUB];

25a
Springfield Armory, Safety Information (“Never use alcohol * * * when handling a gun. Alcohol and other
substances can impair mental and physical bodily
functions, including reaction time and judgment, and
should not be used before or during the handling of
firearms”), available at https://www.springfield-armory.
com/intel/safety-information/ (accessed Sept. 25, 2020)
[https://perma.cc/73B2-KXE8]; National Rifle Association, NRA Gun Safety Rules (“Alcohol, as well as any
other substance likely to impair normal mental or
physical bodily functions, must not be used before or
while handling or shooting guns”), available at https://
gunsafetyrules.nra.org/ (accessed Sept. 25, 2020) [https://
perma.cc/9ZQN-5QSA].
{¶ 47} R.C. 2923.15 is valid under the intermediate-scrutiny test; the statute does not violate the Second Amendment.
C.

The constitutionality of R.C. 2923.15
under the Ohio Constitution

{¶ 48} Weber states in passing that R.C. 2923.15
also violates Article I, Section 4 of the Ohio Constitution, which provides, “The people have the right to bear
arms for their defense and security; but standing armies, in time of peace, are dangerous to liberty, and
shall not be kept up; and the military shall be in strict
subordination to the civil power.” But Weber makes no
attempt to discuss how this provision differs from the
Second Amendment. He does not discuss the text or
history of Article I, Section 4, nor does he discuss this

26a
court’s precedent on that provision or otherwise argue
why that provision protects his conduct in this case beyond the Second Amendment. We therefore decline to
address whether R.C. 2923.15 violates Article I, Section 4 of the Ohio Constitution. See Mason City School
Dist. Bd. of Edn. v. Warren Cty. Bd. of Revision, 138
Ohio St.3d 153, 2014-Ohio-104, 4 N.E.3d 1027, ¶ 38.
IV.

THE DISSENTING OPINION

{¶ 49} The dissenting opinion argues that we
should reverse the judgment of the Twelfth District
Court of Appeals and remand the matter for further
proceedings on the ground that the court of appeals reviewed Weber’s argument using what the dissenting
opinion believes is the wrong test. That approach is
plainly wrong. We review judgments, not reasons. State
v. Lozier, 101 Ohio St.3d 161, 2004-Ohio-732, 803
N.E.2d 770, ¶ 46 (“A reviewing court is not authorized
to reverse a correct judgment merely because it was
reached for the wrong reason”); Agricultural Ins. Co. v.
Constantine, 144 Ohio St. 275, 284, 58 N.E.2d 658
(1944) (same). This is not a controversial principle: we
recognized it as early as 1846. See Harman v. Kelley,
14 Ohio 502, 507 (1846). The United States Supreme
Court recognized it at least a quarter of a century before that. See McClung v. Silliman, 19 U.S. 598, 603, 6
Wheat. 598, 5 L.Ed. 340 (1821) (“The question before
an appellate Court is, was the judgment correct, not
the ground on which the judgment professes to proceed” [emphasis sic]). For this reason, nothing in the
dissenting opinion can be considered to be part of any

27a
holding of this court. It has no controlling effect. At
most, it signals how the dissenting justices might view
the next case that presents a Second Amendment challenge. But it does not establish legal precedent.
{¶ 50} It is also clear that the dissenting opinion
would simply give Weber a second bite of the apple. Although it states that it is simply trying to be fair by
“[g]iving the parties the chance to brief and argue” the
appropriate test for Second Amendment cases (emphasis added), dissenting opinion at ¶ 125, the parties did
have the chance to address the issue. The court of appeals clearly discussed the relevant law, including the
different tests that have been applied nationally since
Heller, and the state thoroughly briefed the issue before us. Two amici curiae in support of the state thoroughly briefed the issue as well. But Weber did not. He
argued only that we should decide this case based on
the basic holding of Heller or after applying strict scrutiny.
{¶ 51} The dissenting opinion also states that “it
is worth reminding both parties that * * * each side
would need to marshal significant historical evidence
in support of their understanding of the Second
Amendment.” (Emphasis added.) Dissenting opinion at
¶ 126. But again, the state and amici curiae did provide a substantial amount of historical material in
support of their argument that the court of appeals’
judgment was correct under the text-history-andtradition approach preferred by the dissenting opinion.
Weber presented no such argument.

28a
{¶ 52} There is, therefore, no reason for the dissenting opinion to give Weber a second chance to argue
this case. And it would be particularly improper to do
that while simultaneously giving him instructions on
how he should argue the case the second time around,
as the dissenting opinion does. The dissenting opinion
even preemptively labels certain statements in Heller
as dicta, apparently oblivious to the fact that doing so
without addressing the correctness of the court of appeals’ judgment is itself dicta.
{¶ 53} Lastly, the dissenting opinion does not really explain what it means to judge R.C. 2923.15 by the
“text, history, and tradition” of the Second Amendment.
What should a court do when those do not provide a
clear answer? If the Twelfth District reviewed this case
again and found the historical record unclear, would
we not be right back where we started?
{¶ 54} More generally, how would the dissenting
opinion address the concern that historical evidence
can be viewed in different ways by different people?
How would it deal with an argument that changed circumstances make reliance on certain Framing Era
practices unjustified? Would it reject that notion reflexively on the ground that modern concerns are wholly
irrelevant under the text-history-and-tradition-based
approach? Or does it acknowledge that present-day
judgments have a role to play?
{¶ 55} The dissenting opinion provides no guidance on these important questions, and there are many
more such questions. (Does one simply look for an

29a
historical analogue to the law at issue? And if analogues exist, how widespread must they be? How does
one deal with modern technologies and circumstances
that did not exist at the time of the Founding? We could
go on.) The dissenting opinion would simply give Weber a second change to litigate his claim, with guidance
on how to win. Nothing about the dissenting opinion
reflects a principled approach to deciding this case.
V.

CONCLUSION

{¶ 56} For the reasons explained above, we affirm
the judgment of the Twelfth District Court of Appeals.
Judgment affirmed.
DONNELLY and STEWART, JJ., concur.
DEWINE, J., concurs in judgment only, with an
opinion.
FISCHER, J., dissents, with an opinion joined by
KENNEDY and FRENCH, JJ.

DEWINE, J., concurring in judgment only.
{¶ 57} The question presented in this case is
whether there is a constitutional right to be drunk and
handle a firearm. Or, can the government say: you’re
allowed to be drunk and you have a right to handle a
firearm—you just can’t do both at the same time. Based
on the original understanding of the Second Amendment, the answer is the latter. So I concur in the

30a
judgment. But because I believe the lead opinion’s
mode of analysis fails to provide adequate protection
for the right to bear arms, I concur in judgment only.

I. The Lead Opinion Fails to Follow the
Analytical Framework Established by
the United States Supreme Court
in Heller v. United States
{¶ 58} The text of the Second Amendment provides that “[a] well regulated Militia, being necessary
to the security of a free State, the right of the people to
keep and bear Arms, shall not be infringed.” The Ohio
Constitution has a similar provision: “The people have
the right to bear arms for their defense and security
* * *.” Ohio Constitution, Article I, Section 4. Because
Weber bases his arguments on the Second Amendment, and because the lead opinion analyzes the right
under the Second Amendment, I too will limit my focus
to the federal guarantee.
A.

In Heller, the United States Supreme Court
Looked to Text, History, and Tradition to
Determine the Scope of the Right

{¶ 59} In District of Columbia v. Heller, the Supreme Court held that “on the basis of both text and
history,” the Second Amendment confers “an individual
right to keep and bear arms.” 554 U.S. 570, 595, 128
S.Ct. 2783, 171 L.Ed.2d 637 (2008). The amendment is
“widely understood to codify a pre-existing right, rather than to a fashion a new one.” Id. at 603. In

31a
assessing the scope of the right, the court began with
the text of the amendment and considered how its
words would have been understood at the time of its
ratification. Id. at 576-592. But the court’s inquiry was
not limited to linguistics. Instead, it drew on history
and tradition to illuminate the purview of the right.
The sources relied upon by the court can be grouped
into three areas.
{¶ 60} First, the court looked to English history
and the Declaration of Rights of 1689. Id. at 593-595.
Second, the court examined contemporary sources
from the time of the founding. These included arguments made during the ratification debates, id. at 598599, state constitutional provisions in the period between independence and the ratification of the Bill of
Rights, id. at 601-602, and “Second Amendment analogues” adopted in nine states between 1789 and 1820,
id. at 602-604. Third, the court considered “how the
Second Amendment was interpreted from immediately
after its ratification through the end of the 19th century.” Id. at 605. In doing so, the court identified four
distinct areas of inquiry: “postratification commentary,” id. at 605-606, pre-Civil War case law, id. at 610614, post-Civil War legislation, id. at 613-616, and
“post-Civil War commentators,” id. at 616-619. Though
acknowledging that the post-Civil-War sources “do not
provide as much insight into [the Second Amendment’s] original meaning as earlier sources,” the court
still found “their understanding of the origins and continuing significance of the Amendment [to be] instructive.” Id. at 614.

32a
{¶ 61} Based on its survey of text, history, and tradition, the court concluded that the Second Amendment guaranteed an individual’s right to bear arms
and that the Washington, D.C., handgun ordinance at
issue in the case infringed upon the right. Id. at 592,
628-629. The court also explained that “[l]ike most
rights, the right secured by the Second Amendment
is not unlimited.” Id. at 626. Thus, it made clear that
its “opinion should [not] be taken to cast doubt on
longstanding prohibitions on the possession of firearms by felons and the mentally ill, or laws forbidding
the carrying of firearms in sensitive places such as
schools and government buildings, or laws imposing
conditions and qualifications on the commercial sale
of arms.” Id. at 626-627. It further explained that
“these presumptively lawful regulatory measures”
were simply examples; the “list does not purport to be
exhaustive.” Id. at 627, fn. 26. The court didn’t elaborate on the historical reasons for these limitations on
the right but rather noted that “there will be time
enough to expound upon the historical justifications
for the exceptions we have mentioned if and when
those exceptions come before us.” Id. at 635.
{¶ 62} Subsequently, in McDonald v. Chicago,
the Supreme Court applied the same text-history-andtradition approach to a Chicago firearms ban. 561 U.S.
742, 130 S.Ct. 3020, 177 L.Ed.2d 894 (2010). It held
that the Second Amendment right applied against the
states through the Fourteenth Amendment because
“the right to keep and bear arms is * * * fundamental
* * * to our scheme of ordered liberty.” Id. at 778. The

33a
court also repeated the assurances made in Heller that
its holding “did not cast doubt on such longstanding
regulatory measures as ‘prohibitions on the possession
of firearms by felons and the mentally ill.’ ” Id. at 786,
quoting Heller, 554 U.S. at 626, 128 S.Ct. 2783, 171
L.Ed.2d 637.
B.

The Lead Opinion Improperly Applies
Intermediate Scrutiny

{¶ 63} The lead opinion begins by discussing the
Supreme Court’s decision in Heller. But rather than
follow the lead of Heller and decide this case by using
text, history, and tradition, it opts to apply a two-step
test. In the first step, the lead opinion asks whether the
restriction places a burden on activity within the Second Amendment. Lead opinion at ¶ 20-22. It then “assume[s] arguendo” that the regulated conduct is not
outside the Second Amendment protection and proceeds to apply an interest-balancing test by which R.C.
2923.15 is subjected to intermediate scrutiny. Id. at
¶ 22. Under this test, “the statute is constitutional so
long as it furthers an important governmental interest
and does so by means that are substantially related to
that interest.” Id. at ¶ 16, citing United States v. Chester, 628 F.3d 673, 683 (4th Cir.2010).
{¶ 64} In my view, the intermediate-scrutiny test
employed by the lead opinion is inconsistent with
Heller and McDonald and insufficiently protective of
the Second Amendment right. In Heller, the Supreme
Court chose to forego employing an interest-balancing

34a
approach and instead looked to text, history, and
tradition to determine whether the District of Columbia handgun statute infringed upon the Second
Amendment right. Heller at 634-635. Notably, in his
dissent in Heller, Justice Breyer proposed an interestbalancing test that looks a lot like what the lead opinion uses today, asking “whether the statute burdens a
protected interest in a way or to an extent that is out
of proportion to the statute’s salutary effects upon
other important governmental interests.” Id. at 689690 (Breyer, J., dissenting). The Heller majority explicitly rejected this suggestion, pointing out that the
amendment itself was the product of interest balancing:
The very enumeration of the right takes out
of the hands of government—even the Third
Branch of Government—the power to decide
on a case-by-case basis whether the right is
really worth insisting upon. A constitutional
guarantee subject to future judges’ assessments of its usefulness is no constitutional
guarantee at all. Constitutional rights are enshrined with the scope they were understood
to have when the people adopted them,
whether or not future legislatures or (yes)
even future judges think that scope too broad.
* * * The Second Amendment * * * is the very
product of an interest balancing by the people—which Justice Breyer would now conduct
for them anew. And whatever else it leaves
to future evaluation, it surely elevates above
all other interests the right of law-abiding,

35a
responsible citizens to use arms in defense of
hearth and home.
(Emphasis sic.) Id. at 634-635.
{¶ 65} There can be little question that the court
meant what it said about interest balancing in Heller
because it made the same point in McDonald: “Municipal respondents assert that [state-constitution
protections of firearm rights] are subject to ‘interest
balancing’ and [state courts] have sustained a variety
of restrictions. * * * In Heller, however, we expressly
rejected the argument that the scope of the Second
Amendment right should be determined by judicial interest balancing.” McDonald, 561 U.S. at 785, 130 S.Ct.
3020, 177 L.Ed.2d 894, citing Heller, 554 U.S. at 633635, 128 S.Ct. 2783, 171 L.Ed.2d 637.
{¶ 66} It is true that in Heller, the court said that
the D.C. ban would be unconstitutional under any of
the traditional standards of scrutiny. Heller at 628629. And it is also true that in the years since Heller,
many federal circuit courts have adopted a test similar
to that employed by the lead opinion with intermediate
scrutiny applied at the second step. See lead opinion at
¶ 13-17 (collecting cases). But read in context, the Supreme Court’s comment in Heller “was more of a gilding-the-lily observation about the extreme nature of
D.C’s law—and appears to have been a pointed comment that the dissenters should have found D.C.’s law
unconstitutional even under their own suggested balancing approach—than a statement that courts may or
should apply strict or intermediate scrutiny in Second

36a
Amendment cases.” Heller v. District of Columbia, 670
F.3d 1244, 1277-1278 (D.C.Cir.2011) (“Heller II”) (Kavanaugh, J., dissenting). And the adoption of the twopronged approach by federal courts seems to result
more from a reflexive resort to familiar standards than
from a faithful reading of Heller and McDonald.
{¶ 67} The disconnect between Heller and the approach used by these federal courts (and the lead opinion today) has not gone unnoticed by members of the
United States Supreme Court. Justice Thomas, in a
dissent joined by Justice Kavanagh, has complained
that “many courts have resisted our decision in Heller
and McDonald” and “[i]nstead of following the guidance provided in Heller” have “self-created” an analytical vacuum that they have filled with a two-step test
that “incorporates tiers of scrutiny on a sliding scale.”
Rogers v. Grewal, ___ U.S. ___, 140 S.Ct. 1865, 1866,
207 L. Ed. 2d 1059 (2020) (Thomas, J. dissenting to the
denial of certiorari). And, dissenting in a case dismissed as moot earlier this year, Justice Alito—joined
by Justices Thomas and Gorsuch—explained the disputed regulation should have been assessed under the
Heller framework, using history and tradition to ascertain “the scope of the right to keep and bear arms as it
was understood at the time of the adoption of the Second Amendment.” New York State Rifle & Pistol Assn.,
Inc. v. New York, ___ U.S. ___, ___, 140 S.Ct. 1525, 1540,
206 L.Ed.2d 798, (Alito, J., dissenting), citing Heller at
577-605, 628-629, 128 S.Ct. 2783. Justice Kavanaugh
concurred with the majority that the case was moot
but wrote separately to explain that he agreed “with

37a
Justice Alito’s general analysis of Heller and McDonald” and “share[d] Justice Alito’s concern that some
federal and state courts may not be properly applying
Heller and McDonald.” Id. at ___, 140 S.Ct. at 1527.
{¶ 68} In the same vein, a number of federal jurists have argued persuasively for application of the
text-history-tradition approach employed by Heller
rather than an interest-balancing test. See, e.g., Heller II at 1271 (Kavanaugh, J., dissenting) (“Heller and
McDonald leave little doubt that courts are to assess
gun bans and regulations based on text, history, and
tradition, not by a balancing test such as strict or intermediate scrutiny”); Tyler v. Hillsdale Cty. Sheriff ’s
Dept., 837 F.3d 678, 703-704 (6th Cir.2016) (“Tyler II”)
(Batchelder, J., concurring in part), quoting Heller at
634, 128 S.Ct. 2783 (“in embracing an approach largely
divorced from the text, history, and tradition of the Second Amendment, I fear that we are well on our way to
doing what Heller and, more importantly, the People
who ratified the Second Amendment, forbade: ‘decid[ing] on a case-by-case basis whether the right is
really worth insisting upon’ ” [emphasis in Heller and
brackets added in Tyler II]).
{¶ 69} Thus, rather than jump to a balancing test,
we should look at text, history, and tradition. If the government regulation burdens conduct that was not understood to fall within the scope of the right, then the
Second Amendment is not implicated. On the other
hand, if a regulation wholly proscribes the core right to
bear arms, it violates the Constitution. This is the case
no matter how compelling the purported governmental

38a
interest. Heller, 554 U.S. at 634-636, 128 S.Ct. 2783,
171 L.Ed.2d 637. A city, for example, might decide to
pass legislation banning handguns. In support, it
might proffer a wealth of statistics and sociological
studies to show that the city’s handgun ban is absolutely necessary to prevent gun violence. Confronting
such a claim, a court need not sift through this evidence and ask whether more narrowly tailored ways
would achieve the compelling government interest of
reducing gun violence. Such an inquiry is unnecessary
because the Second Amendment has taken the question off the table.
{¶ 70} So rarely, if ever, will we need to resort to
an interest-balancing test to resolve a Second Amendment challenge. But to the extent that we ever find a
question that cannot be answered based on text, history, and tradition, intermediate scrutiny is not the appropriate test. There is no question that the Second
Amendment guarantee of a personal right to own a
firearm is a “fundamental right[ ] necessary to our system of ordered liberty.” McDonald, 561 U.S. at 778, 130
S.Ct. 3020, 177 L.Ed.2d 894. Nor is it disputed that this
right is one that is “ ‘deeply rooted in this Nation’s history and tradition.’ ” Id. at 767, 130 S.Ct. 3020, quoting
Washington v. Glucksberg, 521 U.S. 702, 721, 117 S.Ct.
2258, 138 L.Ed.2d 772 (1997). In most contexts, we
subject governmental regulations that infringe on fundamental rights to strict scrutiny. See, e.g., Glucksberg
at 720-721 (strict scrutiny applies to “fundamental”
liberty interests); Harrold v. Collier, 107 Ohio St.3d 44,
2005-Ohio-5334, 836 N.E.2d 1165, ¶ 39 (same). The

39a
framers certainly did not believe the Second Amendment was any less important than any of the other
original amendments. See McDonald at 789 (rejecting
the notion that the right to bear arms should be
treated “as a second-class right, subject to an entirely
different body of rules than the other Bill of Rights
guarantees”). As the Supreme Court explained in Heller and McDonald, the right was well ingrained at the
founding with four states having adopted Second
Amendment analogues before ratification and nine
more states (including Ohio) adopting state constitutional provisions protecting the right to bear arms between 1789 and 1820. McDonald at 769, citing Heller
at 600-603. For good reason, Joseph Story in his Commentaries on the Constitution of the United States
identified “ ‘[t]he right of the citizens to keep, and bear
arms’ ” as “ ‘the palladium of the liberties of a republic.’ ” Id. at 769-770, quoting 3 Story, Commentaries on
the Constitution of the United States, Section 1890, at
746 (1833).
{¶ 71} Thus, I would apply the analytical framework endorsed by the Heller court and decide Weber’s
claim that his Second Amendment rights have been
violated based upon the text, history, and tradition of
the Second Amendment. The three dissenting members of this court take the same approach. See dissent
at ¶ 111. Because a majority of the court today adopts
this approach, going forward, lower courts in Ohio
should follow the analytical framework used by the
Supreme Court in Heller and assess Second Amendment claims based upon text, history, and tradition.

40a
II.

Weber Challenges R.C. 2923.15(A)
as Applied to Him

{¶ 72} Weber advances an “as applied” challenge.
That is, he does not contend that the law is unconstitutional as written but rather that its application to
him “ ‘in the particular context in which he has acted’ ”
is unconstitutional. State v. Lowe, 112 Ohio St.3d 507,
2007-Ohio-606, 861 N.E.2d 512, ¶ 17, quoting Ada v.
Guam Soc. of Obstetricians & Gynecologists, 506 U.S.
1011, 113 S.Ct. 633, 121 L.Ed.2d 564 (1992) (Scalia, J.,
dissenting to the denial of certiorari). The salient facts
are (1) that Weber was highly intoxicated, (2) that he
was in his home with his wife, (3) that he was physically handling his firearm, (4) that while intoxicated
Weber unloaded his weapon, and (5) that out of an apparent concern for her own safety, Weber’s wife, sometime around 4:00 a.m., called 9-1-1 to summon law
enforcement to the house. The question is whether under these facts Weber suffered a deprivation of a constitutional right.
{¶ 73} Even though Weber says that he is challenging the statute as applied, he repeatedly raises
arguments that either are based on erroneous assumptions or relate to other hypothetical situations. For example, he says, “every person who is in their home and
has a firearm in the home while (or after) consuming
alcohol may be charged under the statute.” If that
statement were true, I would likely agree that the
statute was unconstitutional, at least as applied to
someone who was prosecuted for simply having a
weapon in the house while intoxicated. But it is not

41a
true. The statute under which Weber was prosecuted
only makes it crime to “carry or use” a firearm while
intoxicated, something Weber was plainly doing. R.C.
2923.15.
{¶ 74} Weber also contends that the statute conflicts with the castle doctrine and maintains that this
case involves one’s right to use a weapon in their home
for purposes of self-defense. That’s not correct either.
This is not a case in which the government has prosecuted someone who, while inebriated, resorted to using
a weapon in self-defense. Again, if that were the case,
I would likely agree that the law was unconstitutional
in that particular application. But that is not the case
in front of us. Furthermore, Weber’s home wasn’t just
his castle, it was also his wife’s castle. And the reason
the police came to their home was because she summoned them.
{¶ 75} Nor do I understand Weber’s emphatic
claim that this is a case dealing solely with the handling of an unloaded weapon. Weber told the deputy
who arrived on the scene that he was “unloading the
firearm to wipe it down.” Maybe I’m missing something, but I’m pretty sure that the only way someone
can “unload” a weapon is for the weapon to have been
loaded.
{¶ 76} Weber cannot challenge the statute by arguing that “it would be unconstitutional if applied to
third parties in hypothetical situations.” Ulster Cty.
Court v. Allen, 442 U.S. 140, 155, 99 S.Ct. 2213, 60
L.Ed.2d 777 (1979), citing Broadrick v. Oklahoma, 413

42a
U.S. 601, 610, 93 S.Ct. 2908, 37 L.Ed.2d 830 (1973). The
only thing that is relevant is whether the statute is
unconstitutional in its particular application to Weber.
III.

Applying the Heller Framework to
R.C. 2923.15

{¶ 77} The question after Heller and McDonald is
whether R.C. 2923.15 falls within the category of
“longstanding regulatory measures” that, like prohibitions on gun ownership by felons and the mentally
ill, fall outside the Second Amendment’s protection.
McDonald, 561 U.S. at 786, 130 S.Ct. 3020, 177 L.Ed.2d
894. As I will explain below, the weight of the evidence
demonstrates that it does. First, the rationale that
places someone who is currently mentally ill and unable to responsibly use a firearm outside the Second
Amendment protection applies with equal force to
someone who is intoxicated. Second, the best available
evidence about the founding generation’s understanding of the right to bear arms reveals that the right did
not preclude restrictions on classes of people who presented a present danger to others. In addition, the
founding generation closely tied its conception of a
right to the use of reason and understood that one with
a reduced ability to reason could be incapable of exercising a right. Finally, a review of legal prohibitions involving guns and alcohol in 18th- and 19th-century
America adds further support for the proposition that
R.C. 2923.15, as applied to Weber, is not inconsistent
with the Second Amendment.

43a
A.

R.C. 2923.15 Is Consistent with Restrictions
on Firearms Ownership by the Mentally Ill

{¶ 78} In Heller, the Supreme Court placed “longstanding prohibitions on the possession of firearms
by felons and the mentally ill” outside the scope of
the Second Amendment’s protection. Heller, 554 U.S.
at 626, 128 S.Ct. 2783, 171 L.Ed.2d 637. The dissent
correctly notes that this language can be considered
dicta. Dissenting opinion at ¶ 127. But the Supreme
Court felt it sufficiently important to not only make
this point in Heller but to reiterate it in McDonald.
McDonald, 561 U.S. at 786, 130 S.Ct. 3020, 177 L.Ed.2d
894. Thus, it must be considered in the historical
analysis.
{¶ 79} Indeed, since Heller, there has been universal agreement that such restrictions are permissible
under the Second Amendment. See, e.g., Tyler v. Hillsdale, 775 F.3d 308, 321 (6th Cir.2014), vacated on other
grounds and reh’g en banc granted Apr. 21, 2015 (“We
need not reinvent the wheel and justify with historical
reasoning [a] prohibition on possession of firearms by
the mentally ill. * * * Heller has already sanctioned”
this longstanding prohibition). The debate that has
played out in the caselaw since Heller is not whether
such restrictions are permissible but whether certain
individuals—for example, nonviolent felons or those
who previously suffered but do not currently suffer
from a mental illness—may argue that such restrictions may not properly be applied to them. See,
e.g., Kanter v. Barr, 919 F.3d 437, 442 (7th Cir.2019)
(noting that “[r]elying on the ‘presumptively lawful’

44a
language in Heller and McDonald, every federal court
of appeals to address the issue has held that [18 U.S.C.]
922(g)(1)[’s prohibition on firearm ownership by a
felon] does not violate the Second Amendment,” but the
“courts of appeals are split as to whether as-applied”
challenges are available [emphasis sic]); id. at 454
(Barrett, J., dissenting) (“Heller’s reference endorses
the proposition that the legislature can impose some
categorical bans on the possession of firearms. * * *
Our task is to determine whether all felons—violent
and nonviolent alike—comprise one such category”
[emphasis sic]); Tyler II, 837 F.3d at 680-681 (all 16
members of the en banc court agreeing that the government can restrict firearm ownership by someone
who is currently mentally ill but disagreeing as to
whether someone who had been committed 30 years
earlier for a mental-health episode could be denied the
right to own a firearm, despite being decades removed
from the incident and currently having no mentalhealth problems).
{¶ 80} If the government can restrict gun ownership by someone who is currently mentally ill without
running afoul of the Second Amendment, it would
seem to also be the case that the government can restrict gun handling by someone who is intoxicated. One
is hard-pressed to make any distinction between someone who is temporarily intoxicated and someone who
is currently suffering from mental illness. In both
cases, the person is unable to rationally exercise his
right to bear arms and presents a danger to others. As
one commentator explained, “there seems to be little

45a
reason to treat those who are briefly mentally infirm
as a result of intoxication differently from those who
are permanently mentally infirm as a result of illness
or retardation.” Volokh, Implementing the Right to
Keep and Bear Arms for Self-Defense: An Analytical
Framework and a Research Agenda, 56 UCLA L.Rev.
1443, 1535 (2009).
{¶ 81} Indeed, the prohibition on gun handling by
someone who is intoxicated is a much more limited restriction on the right than a restriction directed at the
mentally ill. The ban is of a reduced duration: the
drunk need only sober up to regain the ability to exercise the right. The ban is narrower in scope: under
R.C. 2923.15, someone who is intoxicated isn’t barred
from owning a weapon or even having constructive
possession of one, he simply must wait until he sobers
up to handle his firearm. And unlike someone who suffers from mental illness, one who is intoxicated has
complete control of the firearms disability: if you want
to handle your gun, just make sure you don’t get drunk
first. Indeed, R.C. 2923.15 doesn’t prohibit someone
from handling a gun at all, it just prohibits someone
who chooses to handle a gun from being drunk.
{¶ 82} Also analogous to the restriction on handling a firearm while intoxicated is the federal ban on
gun possession for someone “who is an unlawful user
of or addicted to any controlled substance.” See 18
U.S.C. 922(g)(3). Similar restrictions were unknown at
the time of the founding, but applying Heller, courts
have had little difficulty holding that such laws do not
infringe upon conduct within the scope of the Second

46a
Amendment’s protection. See United States v. Yancey,
621 F.3d 681, 683 (7th Cir.2010) (per curiam). As the
Seventh Circuit explained, “habitual drug abusers, like
the mentally ill, are more likely to have difficulty exercising self-control, making it dangerous for them to
possess deadly firearms.” Id. at 685. Further, such a restriction is “far less onerous than those affecting felons
and the mentally ill,” because “an unlawful drug user
* * * could regain his right to possess a firearm simply
by ending his drug abuse.” Id. at 686-687.
{¶ 83} Weber’s primary complaint is that R.C.
2923.15 was applied to his conduct inside his home.
But restrictions on gun ownership by felons and the
mentally ill also apply inside the home, as do prohibitions directed at habitual drug users. So it is hard to
see how the fact that Weber was inside his home
changes the analysis. Furthermore, Heller spoke of the
“right of law-abiding, responsible citizens to use arms
in defense of hearth and home.” Heller, 554 U.S. at 635,
128 S.Ct. 2783, 171 L.Ed.2d 637. Whether Weber was
law abiding may depend on the outcome of this case,
but at the time of his arrest, he certainly wasn’t a “responsible citizen” and he wasn’t acting in self-defense.
{¶ 84} The analogy to mental illness presents a
strong basis for upholding the restriction. But I agree
with the dissent that it is important to look more
deeply at history and tradition. Thus, it is worth exploring the historical explanations for the restrictions
on firearms ownership by felons and the mentally ill.

47a
B. The Understanding of the Second Amendment
Right at the Time of its Enactment
{¶ 85} As Justice Scalia explained in McDonald,
“[h]istorical analysis can be difficult; it sometimes requires resolving threshold questions, and making nuanced judgments about which evidence to consult and
how to interpret it.” McDonald, 561 U.S. at 803-804,
130 S.Ct. 3020, 177 L.Ed.2d 894 (Scalia, J., concurring).
So at the outset, it is important to understand the
scope of the historical inquiry. It seems clear that laws
identical to R.C. 2923.15 did not exist at the time of the
founding. But that is not the question. The question is
whether the scope of the Second Amendment right as
it was originally understood would have precluded
Congress from enacting a restriction like R.C. 2923.15.
{¶ 86} Think about it this way. A casual glance at
current practice can tell us that we (thankfully) do
not yet live in a dystopian world in which the General Assembly has outlawed everything it could constitutionally outlaw. For instance, the legislature is not
constitutionally prohibited from making it illegal to
drive faster than 35 miles per hour on public highways,
but fortunately it hasn’t chosen to do so. If someone
100 years in the future looked back on the present era,
noted that a great many things weren’t outlawed, and
drew the inference that those things were beyond the
power of the General Assembly to outlaw, he would seriously misunderstand our current system of law.
Thus, the historical analysis has to involve more than
simply looking for founding-era equivalents to R.C.
2923.15.

48a
{¶ 87} This point is driven home by the Supreme
Court’s recognition in Heller and McDonald of “presumptively lawful” restrictions on felons and the mentally ill. Heller, 554 U.S. at 627, 128 S.Ct. 2783, 171
L.Ed.2d 637, fn. 26; McDonald at 786, 130 S.Ct. 3020.
Before 1791, “laws disarming the mentally ill * * *
simply d[id] not exist.” Larson, Four Exceptions in
Search of a Theory: District of Columbia v. Heller and
Judicial Ipse Dixit, 60 Hastings L.J. 1371, 1378 (2009);
see also id. at 1376 (“One searches in vain through
eighteenth-century records to find any laws specifically excluding the mentally ill from firearms ownership”). The same goes for the felon exception. Id. at
1374 (“no colonial or state law in eighteenth-century
America formally restricted the ability of felons to own
firearms”); see also Marshall, Why Can’t Martha Stewart Have a Gun?, 32 Harv.J.L. & Pub.Pol’y 695, 708
(2009) (“one can with a good degree of confidence say
that bans on convicts possessing firearms were unknown before World War I”).
{¶ 88} Because of the lack of close historical analogues, courts and commentators have looked at the
understanding of the Second Amendment right at the
time of the founding when assessing the scope of permissible restrictions on gun ownership by felons and
the mentally ill. This inquiry recognizes that the question is not whether there is a founding-era version of a
modern prohibition, but whether the right was originally understood in such a way as to make the modern
prohibition lawful. Two explanations of the original
understanding of the Second Amendment right—one

49a
based on dangerousness and one rights based—are
particularly persuasive.3 And both weigh in favor of
the restriction on gun use by the intoxicated.
1. The Founding Generation Understood that
the Right to Bear Arms Did Not Preclude
Placing Restrictions on Classes of People Who
Presented a Present Danger to Others
{¶ 89} There is considerable historical evidence
that restrictions on firearm use by those who presented a present danger to others fell outside the
Second Amendment right. Both Judge (now Justice)
Barrett, formerly of the Seventh Circuit, and Judge
Hardiman of the Third Circuit have engaged in a detailed analysis of the historical evidence from the time
of the founding to determine the public understanding
of the Second Amendment at the time of its enactment.
In the words of Judge Barrett, founding-era “legislatures disqualified categories of people from the right to
bear arms only when they judged that doing so was
3

A third explanation that has been has cited by numerous
courts ties the Second Amendment right to the concept of a virtuous citizenry. See, e.g., Yancey, 621 F.3d at 684-685 (“most scholars of the Second Amendment agree that the right to bear arms
was tied to the concept of a virtuous citizenry and that, accordingly, the government could disarm ‘unvirtuous citizens’ ”). Because I find that explanation less persuasive and underprotective
of the Second Amendment right, I do not elaborate on it here. See
generally Kanter, 919 F.3d at 462-464 (Barrett, J. dissenting) (debunking the idea that the Second Amendment should be understood as applying only to virtuous citizens). Under that rationale,
though, the restriction on one who is presently intoxicated would
easily pass constitutional muster.

50a
necessary to protect the public safety.” Kanter, 919
F.3d at 451 (Barrett, J., dissenting). “History,” she explained, “is consistent with common sense: it demonstrates that legislatures have the power to prohibit
dangerous people from possessing guns.” Id. Judge
Hardiman reached a similar conclusion: “the best evidence we have indicates that the right to keep and bear
arms was understood to exclude those who presented
a danger to the public.” Binderup v. Atty. Gen., 836 F.3d
336, 358 (3d Cir.2016) (Hardiman, J., concurring in
part). See also Greenlee, The Historical Justification
for Prohibiting Dangerous Person from Possessing
Arms, 20 Wyo.L.Rev. 249, 286 (2020) (surveying the
historical evidence from the English tradition forward
and concluding that “[h]istory shows that the right [to
bear arms] could be denied only to mitigate threats
posed by dangerous persons”).
{¶ 90} I will only endeavor to briefly summarize
the comprehensive historical materials relied upon by
the two jurists here; interested readers will be far better served to turn to the opinions in Kanter and
Binderup.
{¶ 91} The strongest evidence comes from debates
and proposals at the state ratifying conventions. At the
Pennsylvania convention, antifederalists proposed
language preventing the government from disarming
the people except for “ ‘crimes committed, or real danger of public injury from individuals.’ ” (Emphasis
added in Binderup). Binderup at 367, quoting The
Address and Reasons of Dissent of the Minority of
the Convention of Pennsylvania to their Constituents,

51a
reprinted in 2 Schwartz, The Bill of Rights: A Documentary History 665 (1971). At the Massachusetts convention, Samuel Adams proposed an amendment that
would have guaranteed the right to bear arms to the
people of the United States “ ‘who are peaceable citizens.’ ” (Emphasis in Binderup.) Id., quoting Journal of
Convention: Wednesday February 6, 1788, reprinted in
Debates and Proceedings in the Convention of the Commonwealth of Massachusetts Held in the Year 1788, at
86 (White 1856). At the time of the Massachusetts convention, “ ‘peaceable’ was defined as ‘[f ]ree from war;
free from tumult’; ‘[q]uiet; undisturbed’; ‘[n]ot violent;
not bloody’; ‘[n]ot quarrelsome; not turbulent.’ ” Kanter
at 455, quoting 1 Samuel Johnson, A Dictionary of the
English Language (5th ed.1773). And at the New
Hampshire convention, it was proposed that “Congress
shall never disarm any Citizen unless such as are or
have been in Actual Rebellion.” Binderup at 367, quoting 2 Schwartz at 761. “[T]aken together as evidence of
the scope of founding-era understandings * * * [t]he
concern common to all three [proposals] * * * is about
threatened violence and the risk of public injury.” Kanter at 456, citing Binderup at 368. See also Binderup at
367, citing Halbrook, The Founders’ Second Amendment 190-215; id., quoting Halbrook at 196 (“surveying
the debates at the ratifying conventions and identifying the commonplace understanding that ‘dangerous
persons could be disarmed’ ”).
{¶ 92} Restrictions in place before and during the
founding era further support this understanding. Laws
in place in 17th-century England allowed for the

52a
disarming of people who were thought to pose a threat
to public safety. Kanter at 456-457; Binderup at 368.
And “[s]imilar laws and restrictions appeared in the
American colonies, adapted to the fears and threats of
that time and place.” Kanter at 457; Binderup at 368.
Thus, Judge Barrett was able to conclude that “[i]n
sum, founding-era legislatures categorically disarmed
groups whom they judged to be a threat to the public
safety.” Kanter at 458. See also Marshall, 32 Harv.J.L.
& Pub. Pol’y at 727-728 (concluding after a survey of
English and colonial law that the right to bear arms
was understood to be subject to restriction based upon
“credible grounds for fearing that a member of [a class]
would, if armed, pose a genuine present danger to others”); Churchill, Gun Regulation, the Police Power, and
the Right to Keep Arms in Early America: The Legal
Context of the Second Amendment, 25 Law & Hist.Rev.
139, 160 (2007) (classes of people thought by colonialera governments to pose a danger through their use of
guns were placed outside of the body politic entitled to
the protection of the Second Amendment; these groups
included nonassociators who refused to pledge loyalty,
slaves, and Indians).
{¶ 93} Moreover, even as to groups who were free
from restrictions on the ownership of guns, colonial-era
legislatures still placed restrictions on uses of weapons
that posed a present danger to others. This is particularly relevant here because what is at issue is not a
restriction on Weber’s right to own a weapon but on his
right to use his weapon in a reckless manner that endangered others.

53a
{¶ 94} As early as the mid-1600s, Virginia had
passed a law imposing a fine on those who “shoot any
guns at drinking.” Act of March 10, 1655, 1655 Va.Laws
401. Around the time of the founding, a Virginia law
allowed the state to confiscate the arms of those who
“ride armed by night [or] by day, in fair or markets, or
in other places, in terror of the county.” An Act Forbidding and Punishing Affrays, 1786 Va.Laws 35. A New
York ordinance prohibited the discharge of weapons “in
any street, lane or alley, garden or other inclosure, or
from any house, or in any other place where persons
frequently walk.” An Act for the More Effectual Prevention of Fires in the City of New York, 1761-1775
N.Y.Laws 548 (1769). A 1771 New Jersey law made it
illegal to “set any loaded Gun in such Manner, as
that the same shall be intended to go off or discharge
itself, or be discharged by any String, Rope or other
Contrivance.” William Paterson, Laws of the State of
New-Jersey 21 (1800). And, in the mid-1700s, several
cities, including Philadelphia, New York, and Boston,
prohibited the firing of weapons in the crowded cities
altogether. Churchill, 25 Law & Hist.Rev. at 162. Eventually, Pennsylvania and New York extended this prohibition to all other towns. Id. Massachusetts and
Delaware barred the presence of armed assemblies in
public places, and Delaware’s prohibition explicitly included polling places. An Act For Preventing And Suppressing Of Riots, Routs And Unlawful Assemblies,
1750 Mass. Acts 333, 339; Article XXVIII, Delaware
Constitution (1776).

54a
{¶ 95} Regulations on the storage and transport of
gunpowder were expressly enacted for public safety.
Cornell & DeDino, A Well Regulated Right: The Early
American Origins of Gun Control, 73 Fordham L.Rev.
487, 510-512 (2004). Statutes set limits on the amount
of gunpowder that could be stored in homes and dictated where and how it could be stored. Id. at 511-512.
Pennsylvania, for example, mandated that gunpowder
be stored on the top story of homes in the borough of
Carlisle. An Act for Erecting the Town of Carlisle, in
the County of Cumberland, into a Borough, Section
XLII, 1781-1782 Pa.Laws 25. Some laws restricted the
storage of firearms themselves. In Massachusetts, storing loaded firearms in a home in Boston was prohibited, and improper storage could lead to forfeiture. An
Act in Addition to the Several Acts Already Made for
the Prudent Storage of Gun-Powder within the Town
of Boston, 1783 Mass.Acts 218. In Heller, the majority
found the existence of such laws did not justify a complete ban on handguns, noting that such laws “do not
remotely burden the right of self-defense as much as
an absolute ban on handguns.” 554 U.S. at 632, 128
S.Ct. 2783, 171 L.Ed.2d 637. But here the opposite is
true. Forcing someone to keep his gunpowder (or today,
ammunition) away from his firearm would impose a far
greater burden on the right to self-defense than requiring Weber, who wasn’t acting in self-defense, to refrain
from handling his weapon until he sobered up.
{¶ 96} There is compelling evidence that in the
founding era, the Second Amendment would have been
understood to allow disarming someone who posed a

55a
present danger to others. Plainly, someone who is intoxicated and wields a firearm falls into this category.
There was a reason Weber’s wife felt it necessary to
call 9-1-1.
2. Under a Rights-Based Approach, R.C. 2923.15
Is Consistent with the Second Amendment
{¶ 97} Another way to approach the historical inquiry is by focusing on the understanding of a right at
the time of the Second Amendment’s enactment. Judge
Batchelder of the Sixth Circuit applied such an approach in her concurrence in Tyler II, 837 F.3d 678,
which explored the historical basis for restrictions on
firearm ownership by the mentally ill. I will only
briefly summarize the extensive materials that she relied upon here.
{¶ 98} Because the Second Amendment protects
“the right of the people to keep and bear arms” (emphasis added), it is worthwhile to examine the 18thcentury understanding of the meaning of a right. At
the time of the founding, “the idea of right was intimately connected with the idea of reason, a term that
referred not only to the ‘faculty of the mind by which it
distinguishes truth from falsehood [and] enables the
possessor to deduce inferences from facts or from propositions,’ but also to the mind’s ability to distinguish
‘good from evil.’ ” (Brackets sic.) Tyler II at 704-705
(Batchelder, J., concurring), quoting 2 Noah Webster,
An American Dictionary of the English Language
(1828). Eighteenth-century theorists such as John

56a
Locke, Jean Jacques Burlamqui, and James Wilson all
drew close connections between the exercise of a right
and reason. Id. at 705. Locke, for example, described
man’s natural state, in which he enjoyed all of his natural rights, “as a state of perfect freedom cabined only
by ‘the law of nature,’ which he defined as the rule ‘of
reason and common equity, which is that measure
God has set to the actions of men, for their mutual security.’ ” (Emphasis deleted.) Id. at 705, quoting Locke,
Two Treatises of Government (1691), reprinted in 4
Locke, The Works of John Locke 207, 342 (12th ed.1824).
{¶ 99} This understanding was widely accepted by
the founding generation, who believed that “rights
could, in the central case, be exercised only by those
possessing reason.” Id. at 705; see also Mai v. United
States, 974 F.3d 1082, 1089 (9th Cir.2020) (“influential
philosophers of the [founding era] understood that
rights attach with the attainment of ‘reason’ and correspondingly, the loss of rights persisted only through
the loss of reason”) (Bumatay, J., dissenting from the
denial of rehearing en banc). Thus, insane persons or
minors who had not obtained the age of reason could
not exercise all of their natural rights because they
lacked the reason by which to do so. Id. By the same
token, “an insane person could not justly be subjected
to many of the obligations that corresponded to those
rights, such as criminal liability.” Id.
{¶ 100} Similar logic applies to someone who is
intoxicated. A person who is intoxicated has a reduced
ability to make reasoned judgments. And certainly,
that was the case here. Weber had glassy and bloodshot

57a
eyes, his speech was slurred, and he was unable to
stand without swaying. The deputy at the scene was
unable to administer the horizontal-gaze nystagmus
test because Weber would not follow directions. Weber
seemed “confused” and was unable to supply a definite
answer to questions. Under the conception of the right
held by the founders, Weber could be deprived of his
right until he sobered up because until that point, he
was not capable of reasonably exercising it.
{¶ 101} There is, of course, nothing incompatible
about the rights-based approach to the historical evidence used by Judge Batchelder and the focus on
dangerousness employed by Judges Hardiman and
Barrett. There is strong evidence that the founding
generation believed that those who posed a present
danger to others fell outside of the Second Amendment’s protection. There is also good reason to think
that the founding generation believed the ability to exercise a right was closely connected to one’s use of reason. Under both understandings, precluding someone
who is presently intoxicated from using a firearm is
perfectly compatible within the original public meaning of the Second Amendment.
3. Legal Prohibitions in 18th- and 19th-Century
America Relating to Alcohol and Firearms Further
Demonstrate that the Application of R.C. 2923.15
Did Not Violate Weber’s Second Amendment Rights
{¶ 102} The explicit reference in Heller and
McDonald to “presumptively lawful” restrictions on felons and the mentally ill supports the constitutionality

58a
of R.C. 2923.15. See Heller, 554 U.S. at 627, 128 S.Ct.
2783, 171 L.Ed.2d 637, fn. 26; McDonald, 561 U.S. at
786, 130 S.Ct. 3020, 177 L.Ed.2d 894. So too does the
available evidence about the founding generation’s understanding of the scope of the right to bear arms. The
Heller court also endorsed consideration of “how the
Second Amendment was interpreted from immediately
after its ratification through the end of the 19th century.” Heller at 605. And while legislative enactments
dealing with drunken firearm use were not ubiquitous
during that time period, the available materials all
support the notion that the right to bear arms does not
encompass an unconditional right to be drunk and
handle a firearm.
{¶ 103} The idea that the government may protect
its citizens from the dangers of drunks wielding firearms is backed up by history and tradition. In addition
to the materials cited in the previous section about disarming those who posed a danger to others, there were
also specific laws relating to guns and alcohol. Virginia
had early restrictions on firing guns while intoxicated
and required violators to forfeit 100 pounds of tobacco.
Act of March 10, 1655, 1655 Va.Laws 401. Around the
same time, a New York law explicitly recognized the
“deplorable accidents such as wounding” caused by the
drunken firing of guns on New Year’s and May Days
and so prohibited the firing of guns on those days. Ordinance of The Director General and Council of New
Netherland to Prevent Firing Of Guns, Planting May
Poles and Other Irregularities Within This Province,
1665 N.Y. Laws 205. And one suspects that alcohol was

59a
on the minds of legislators when the state of Pennsylvania, in 1774, outlawed “wantonly, and without reasonable occasion, discharg[ing] and fir[ing] off any
hand-gun, pistol or other fire-arms” around the New
Year. An Act to Suppress the Disorderly Practice of Firing Guns, etc., on the Times Therein Mentioned, 17591776 Pa.Acts 421, Section 1. So too when New York, in
1785, prohibited firing guns entirely “on the eve of the
last day of December, and the first and second days of
January” because, apparently, “great dangers have
arisen, and mischief been done.” An Act to Prevent the
Firing of Guns and other Fire Arms within this State
on Certain Days Therein Mentioned, 1784-1785 N.Y.
Laws 152.
{¶ 104} The examples continue right through the
beginning of the 20th century. In Kansas, an 1868
statute prohibited any person “under the influence of
intoxicating drink * * * [from] carrying on his person a
pistol, bowie-knife, dirk or other deadly weapon.” 1868
Kan.Sess.Laws 66. An 1883 Missouri statute prohibited one from having or carrying “any such weapon
upon or about his person when intoxicated, or under
the influence of intoxicating drinks.” State v. Shelby,
90 Mo. 302, 2 S.W. 468, 469 (1886). In Texas in 1871, a
court rejected a constitutional challenge in which the
person had been convicted of carrying a firearm while
intoxicated. English v. State, 35 Tex. 473, 474-477, 480
(1872). And in Ohio in 1900, this court upheld a law
aimed at disarming vagrants, explaining that if one
“employs those arms which he ought to wield for the
safety and protection of his country, his person, and his

60a
property, to the annoyance and terror and danger of its
citizens, his acts find no vindication in the bill of
rights.” State v. Hogan, 63 Ohio St. 202, 218-219, 58
N.E. 572 (1900).
{¶ 105} Weber correctly points out that the founding generation drank a lot of alcohol. But there was
also a lot of regulation of drinking at the same time.
Indeed, alcohol and alcohol consumption was probably
the most regulated subject in the early republic.
Drunkenness generally was not well accepted and was
a crime throughout the colonies. Sismondo, America
Walks into a Bar 11 (2011); Lender, Drinking in America: A History 17 (1987). By the time of the founding,
each colony had “developed an extensive legal code to
combat all aspects of liquor violations.” Lender at 17.
Drunkards were often heavily punished, receiving
jail time, fines, and even corporal punishment. Id.
In Massachusetts, some of the worst offenders were
forced to wear the scarlet letter “D.” Id. Taverns—the
vital center of colonial towns—were heavily regulated
in all states. Sismondo at 4, 15. In Virginia after 1638,
for example, “there was more law on the books regarding the licensing of taverns than there was on ‘roads,
land titles, care of the poor and general law and order.’ ”
Sismondo at 15.
{¶ 106} Other laws more explicitly recognized the
dangers intoxicated individuals could pose. An 1817
Pennsylvania law, for example, mandated a suspension
of not less than one year for any pilot “intoxicated with
drink,” “whilst having charge of a ship or vessel.” A
Supplement to the Act, entitled “An Act to Establish a

61a
Board of Wardens for the Port of Philadelphia, for the
Regulation of Pilots and Pilotages, and for Other Purposes Therein Mentioned,” 1816 Pa.Laws 109. An 1854
statute made it a crime to “[w]ilfully furnish[ ] intoxicating drinks * * * to any person of known intemperate
habits, to a minor, or to an insane person” or to “any
person when drunk or intoxicated.” An Act to Protect
Certain Domestic and Private Rights, and Prevent
Abuses in the Sale and Use of Intoxicating Drinks,
1854 Pa.Laws 663. During the 18th century in particular, governments were sure to restrict the sale of alcohol to Indians and slaves, believing them to be
especially susceptible to violence when intoxicated.
Lender at 21-29. Clearly, drunkenness was understood
to have adverse effects on society, and those viewed as
dangerous with alcohol were either prohibited from
consuming it or were restricted from partaking in
other activities once intoxicated. Thus, members of the
founding generation would have found nothing incongruent about regulating one’s alcohol use while using
a gun.
{¶ 107} There is also no question that colonial
Americans understood intoxication could be grounds
for the temporary suspension of one’s ability to exercise a protected right. The Statutes of Ohio and the
Northwestern Territory, for example, provided that if
“any person by being intoxicated, shall be found making or exciting any noise, contention or disturbance, at
any tavern, court, election, or other meeting” that person could be fined or “imprisoned. ‘till such court, election or meeting is over.” Salmon P. Chase, Statutes of

62a
Ohio and of the Northwestern Territory, Adopted or
Enacted from 1788 to 1833 Inclusive: Together with
the Ordinance of 1787; the Constitutions of Ohio and
of the United States, and various Public Instruments
and Acts of Congress 503 (1833). Similarly, an 1811
Maryland statute made it unlawful to supply “ ‘spirituous or fermented liquors * * * on the day of any election hereafter to be held in the several counties of ’ ”
Maryland. Cearfoss v. State, 42 Md. 403, 406 (1875)
citing 1865 Md.Laws 361; Dylan Lynch, Ballots and
Beer: America’s Tipsy Relationship, (August 23, 2018),
https://www.ncsl.org/blog/2018/08/23/ballots-and-beeramericas-tipsy-relationship.aspx (accessed Dec. 12. 2020)
[https://perma.cc/8F3T-TAWM] (dating this prohibition to 1811). Simply because the right to vote and the
right to assemble were considered fundamental rights
did not mean that the government could not restrain
someone from exercising those rights while they were
intoxicated.
{¶ 108} To be sure, none of these laws exactly
match the statute at issue here. But there is no reason
to insist that our current concerns need to match those
of the founding generation. What is important is
whether under the original public understanding of
the Second Amendment, R.C. 2923.15 as applied to Weber infringed upon constitutionally protected conduct.
Text, history, and tradition all demonstrate that it did
not.

63a
IV.

Conclusion

{¶ 109} The right to bear arms guaranteed by the
Second Amendment and the Ohio Constitution is entitled to this court’s full protection. It should not be diminished through the use of an interest-balancing test
that is unmindful of text, history, and tradition. History and tradition, though, teach that the right did not
give license to Frederick Weber to endanger his wife by
drunkenly wielding his gun. Accordingly, I concur in
the decision to uphold Weber’s conviction. But because
the lead opinion applies an intermediate-scrutiny
standard that fails to afford the Second Amendment
right the protection it is due, I concur only in its judgment.

FISCHER, J., dissenting.
{¶ 110} In this case, we are asked to decide
whether the application of R.C. 2923.15(A) to a defendant charged with carrying a firearm in his home while
under the influence of alcohol is unconstitutional in
light of the Second Amendment to the United States
Constitution. We are also asked to decide what the appropriate method of review is in such a case.
{¶ 111} The answer to the latter of these questions is that laws and regulations challenged under the
Second Amendment must be judged according to the
text, history, and tradition of the Second Amendment.
Because that was not the standard applied below, there
is no need to go any further in the analysis, and this

64a
cause should be remanded to the Twelfth District
Court of Appeals for further proceedings on the constitutionality of R.C. 2923.15 under that test. Because the
court does otherwise, I respectfully dissent.
I.

BACKGROUND

{¶ 112} The Second Amendment to the United
States Constitution provides that “[a] well regulated
Militia, being necessary to the security of a free State,
the right of the people to keep and bear Arms, shall not
be infringed.” R.C. 2923.15 makes it a misdemeanor for
a person under the influence of alcohol or drugs to
“carry or use any firearm or dangerous ordnance.”
{¶ 113} Appellee, the state of Ohio, charged appellant, Fred Weber, with violating R.C. 2923.15. It is undisputed that Weber was both under the influence of
alcohol and carrying a shotgun when the deputy sheriffs responding to his wife’s 9-1-1 call arrived on the
scene. What is at issue then is whether his conduct was
protected by the Second Amendment to the United
States Constitution, which applies fully in this state.
McDonald v. Chicago, 561 U.S. 742, 791, 130 S.Ct. 3020,
177 L.Ed.2d 894 (2010).
{¶ 114} At his bench trial, Weber unsuccessfully
argued that criminalizing the act of holding a firearm
while under the influence of alcohol is unconstitutional
when that conduct occurs entirely inside the home.
Following his conviction, Weber raised that same argument on appeal. 2019-Ohio-916, 132 N.E.3d 1140,
¶ 10-11. Like the trial court, the Twelfth District Court

65a
of Appeals found Weber’s constitutionality argument
unpersuasive. Specifically, after applying intermediate
scrutiny, the Twelfth District held that R.C. 2923.15
does not violate a person’s constitutional right to keep
and bear arms because the law is “narrowly tailored to
serve the significant government interest of guarding
public safety and leaves open alternate means of exercising the fundamental right to bear arms.” Id. at ¶ 27.
{¶ 115} After the Twelfth District issued its decision, we accepted Weber’s discretionary appeal. See
156 Ohio St.3d 1452, 2019-Ohio-2780, 125 N.E.3d 941.
II.
A.

ANALYSIS

Method of Review

{¶ 116} Because Weber challenged the validity of
applying R.C. 2923.15 to the facts of his case under the
Second Amendment, we must first decide what method
of review is appropriate when a court in this state is
tasked with considering a challenge to a law or regulation on the grounds that it violates the Second Amendment.
{¶ 117} Before answering that question, it is useful to examine why that question is now before us as
well as why that question is a difficult one to answer.
Following the United States Supreme Court’s decisions in District of Columbia v. Heller, 554 U.S. 570,
128 S.Ct. 2783, 171 L.Ed.2d 637 (2008), and McDonald,
561 U.S. 742, 130 S.Ct. 3020, 177 L.Ed.2d 894, judges
across the federal-court system have been in open

66a
disagreement with one another on what the appropriate method of review is in Second Amendment
cases. The predominant approach is to utilize a convoluted interest-balancing test in which one level of scrutiny gets applied in some cases and another level of
scrutiny gets applied in others. See, e.g., United States
v. Marzzarella, 614 F.3d 85, 89 (3d Cir.2010); United
States v. Chester, 628 F.3d 673, 680 (4th Cir.2010);
United States v. Reese, 627 F.3d 792, 800-801 (10th
Cir.2010); Ezell v. Chicago, 651 F.3d 684, 701-703 (7th
Cir.2011); United States v. Greeno, 679 F.3d 510, 518
(6th Cir.2012). At the same time, a not insignificant
number of judges have criticized that test, arguing instead that the proper approach in these cases is to look
at the text, history, and tradition of the Second Amendment. See, e.g., Kanter v. Barr, 919 F.3d 437, 451-453
(7th Cir.2019) (Barrett, J., dissenting); Tyler v. Hillsdale
Cty. Sheriff ’s Dept., 837 F.3d 678, 702 (6th Cir.2016) (en
banc) (Batchelder, J., concurring in part and concurring in judgment); Binderup v. Atty. Gen., 836 F.3d 336,
367 (3d Cir.2016) (en banc) (Hardiman, J., concurring
in part and concurring in judgment); Heller v. District
of Columbia, 670 F.3d 1244, 1272-1273 (D.C.Cir.2011)
(Kavanaugh, J., dissenting).
{¶ 118} The parties in this case, perhaps due to
the confusion in this area, each ask us to apply a different level of scrutiny. The lead opinion heeds that call
and adopts the interest-balancing test created by the
federal courts. Consistent with the United States Supreme Court’s decisions in Heller and McDonald, however, I would not adopt such a test. Instead, I would

67a
hold that the appropriate inquiry is to evaluate the
challenged law or regulation according to the text, history, and tradition of the Second Amendment.4
{¶ 119} In Heller, the court notably did not employ
an interest-balancing test when faced with a Second
Amendment challenge. Rather, the court resolved that
case by focusing on the text, history, and tradition of
the Second Amendment. For example, the court started
by conducting an extensive analysis of the text of the
Second Amendment, 554 U.S. at 582-591, 128 S.Ct.
2783, 171 L.Ed.2d 637, which it found protected the
right of a citizen to have and to carry weapons in case
of confrontation, id. at 592. The court went on to confirm its interpretation of the text by looking at the
history and tradition of the right. Id. at 592-619. Specifically, the court considered the right’s English roots,
id. at 592-594, the understanding of the right in colonial America, id. at 594, analogous provisions in state
constitutions that were adopted following the Declaration of Independence, id. at 600-603, postratification
commentaries from “founding-era legal scholars,” id. at
605-610, early-American case law, id. at 610-614, and
19th-century laws and commentaries, id. at 614-619,
which the court found “instructive” of “the origins and
continuing significance of the Amendment,” id. at 614.
4

It is worth stating here that deciding this case would have
been much simpler if this court had only had more guidance in
this area. Hopefully, upon seeing the scores of pages that this
court has added to the subject today, the United States Supreme
Court will consider this issue and will provide some much-needed
clarity on how to approach a challenge to a law or regulation under the Second Amendment.

68a
The court then concluded by noting that the right was
not unlimited and that regulations and restrictions
were permissible, so long as there were historical justifications for those regulations and restrictions. Id. at
626-635.
{¶ 120} Collectively, from start to finish, the approach in Heller suggests that the proper method of review in Second Amendment cases is to look at the text,
history, and tradition of the Second Amendment to see
if the challenged law or rule is consistent with the
scope of the right as originally understood. See id. at
634-635 (“Constitutional rights are enshrined with the
scope they were understood to have when the people
adopted them * * *”).
{¶ 121} In McDonald, the court employed a similar methodology to decide that the right to keep and
bear arms is applicable to the states under the Fourteenth Amendment. 561 U.S. 742, 130 S.Ct. 3020, 177
L.Ed.2d 894 (2010). In doing so, a plurality of the court
stated that Heller should be understood as rejecting an
interest-balancing test in favor of an approach that focuses on the original understanding of the Second
Amendment. McDonald at 785.
{¶ 122} The benefit of the Heller and McDonald
approach is that while “[h]istorical analysis can be
difficult,” McDonald at 803 (Scalia, J., concurring),
looking at the text, history, and tradition of the Second
Amendment when deciding a constitutional challenge
under that provision is far more consistent with our
system of government and the judiciary’s role in that

69a
system than simply applying an interesting-balancing
test. After all, “the Constitution cannot secure the people’s liberty any less today than it did the day it was
ratified,” Oil States Energy Servs., L.L.C. v. Greene’s
Energy Group, L.L.C., ___ U.S. ___, ___, 138 S.Ct. 1365,
1381, 200 L.Ed.2d 671 (2018) (Gorsuch, J., dissenting),
and it is up to us as judges to ensure that is so. The
Federalist No. 78 at 467-470 (Alexander Hamilton)
(Clinton Rossiter Ed.1961).
{¶ 123} Consequently, following Heller and McDonald, to determine whether an Ohio law or regulation is constitutional under the Second Amendment, I
would look to the text, history, and tradition of the Second Amendment to see if the challenged law or rule is
consistent with the original understanding of the Second Amendment and is thus constitutional. In other
words, I would let the original understanding of the
scope of the right inform the government’s ability to
restrict a person’s right to keep and bear arms.
B.

Remand for Application to R.C. 2923.15

{¶ 124} Because the court below applied a different method of review, I would decline to answer
whether R.C. 2923.15 is constitutional, and I would reverse and remand the cause to the court of appeals for
further proceedings on that issue.
{¶ 125} Giving the parties the chance to brief and
argue this question through the adversarial process is
both fair and wise. First, doing so would prevent the
parties from being penalized simply because there

70a
previously was not a clear method of review in these
types of cases. Next, doing so would also help to ensure
that the right result, one way or the other, is eventually
reached in this case. Reaching the correct result is especially important here because we are dealing with
the constitutionality of a law passed by the General
Assembly and an individual’s liberty.
{¶ 126} Of course, given the scant briefing done by
Weber’s lawyers here, it is worth reminding both parties that under this approach, each side would need to
marshal significant historical evidence in support of
their understanding of the Second Amendment. It is
not enough to simply claim that the existence of a right
invalidates an otherwise presumptively valid law.
Likewise, it is not enough to rest solely on the fact that
laws passed by the General Assembly are presumptively valid. Instead, the parties must show their work
and explain, with the help of support, why the law in
question is or is not constitutional.
{¶ 127} Another word of caution is appropriate
here about some language in Heller that has given
courts and litigants alike some trouble over the years.
Toward the end of Heller, the court stated that its
decision was limited to the law before it and was not
intended to cast doubt on any other restrictions, including “prohibitions on the possession of firearms by
felons and the mentally ill, or laws forbidding the carrying of firearms in sensitive places such as schools
and government buildings, or laws imposing conditions
and qualifications on the commercial sale of arms.” 554
U.S. at 626-627, 128 S.Ct. 2783, 171 L.Ed.2d 637. A

71a
number of courts, including this court and the court of
appeals in this case, have used that language as a
shortcut to upholding other laws challenged under the
Second Amendment. That very clearly was not the
point of that passage, however. In fact, as mentioned
above, the court in Heller was quite explicit that the
validity of those and other restrictions should be evaluated in future cases based on the text, history, and
tradition of the Second Amendment. Id. at 635. So, rather than validating any of the restrictions mentioned
by the court, Heller’s commentary on those restrictions
is essentially dicta. United States v. Skoien, 614 F.3d
638, 640 (7th Cir.2010); see also Cohens v. Virginia, 19
U.S. 264, 399, 6 Wheat. 264, 5 L.Ed. 257 (1821) (if general expressions in an opinion go beyond the case,
“they may be respected, but ought not to control the
judgment in a subsequent suit when the very point is
presented for decision”). Courts and litigants should
therefore exercise caution before relying on that language in Heller and should still focus on the text of the
Second Amendment and the applicable history and
tradition of the right.
{¶ 128} Accordingly, with the preceding in mind, I
would remand the cause to the court of appeals for further proceedings on whether R.C. 2923.15 is unconstitutional as applied in this case. On remand, I would
expect the court and the parties to rely on the text, history, and tradition of the Second Amendment to answer
that question.

72a
III.

CONCLUSION

{¶ 129} For the reasons stated above, I would reverse the judgment of Twelfth District Court of Appeals and remand this cause to that court for further
proceedings. Because the court does differently, I respectfully dissent.
KENNEDY and FRENCH, JJ., concur in the foregoing
opinion.

D. Vincent Faris, Clermont County Prosecuting
Attorney, and Nick Horton, Assistant Prosecuting Attorney, for appellee.
Gary A. Rosenhoffer, for appellant.
Jones Day, Yvette McGee Brown, and Benjamin C.
Mizer, urging affirmance for amici curiae Giffords Law
Center to Prevent Gun Violence and Brady Center to
Prevent Gun Violence.
Zach Klein, Columbus City Attorney, and Charles
P. Campisano, Assistant City Attorney; and Every
Town Law, Eric Tirschwell, Mark Anthony Frasseto,
and Krystan Hitchcock, urging affirmance for amicus
curiae city of Columbus.
Paula Boggs Muething, Cincinnati City Solicitor,
and Emily Smart Woerner and Jacklyn Gonzales Martin, Assistant City Solicitors, urging affirmance for
amicus curiae city of Cincinnati.

73a
Eve V. Belfance, Akron Director of Law, urging affirmance for amicus curiae city of Akron.
Barbara Doseck, Dayton City Attorney, and John
C. Musto, Assistant City Attorney, urging affirmance
for amicus curiae city of Dayton.
Anthony L. Geiger, Lima Law Director, urging affirmance for amicus curiae city of Lima.
Dale R. Emch, Toledo Director of Law, urging affirmance for amicus curiae city of Toledo.

74a
IN THE COURT OF APPEALS
TWELFTH APPELLATE DISTRICT OF OHIO
CLERMONT COUNTY
STATE OF OHIO,
Appellee,

CASE NO. CA2018-06-040
OPINION
3/18/2019

vs.
FREDRICK M. WEBER,
Appellant.

CRIMINAL APPEAL FROM
CLERMONT COUNTY MUNICIPAL COURT
Case No. 2018CRB00659
D. Vincent Faris, Clermont County Prosecuting Attorney, Nicholas A. Horton, 76 South Riverside Drive, 2nd
Floor, Batavia, OH 45103, for appellee.
Gary A. Rosenhoffer, 313 E. Main Street, Batavia, OH
45103, for appellant.
M. POWELL, J.
{¶ 1} Appellant, Fredrick Weber, appeals his conviction in the Clermont County Municipal Court for using weapons while intoxicated.
{¶ 2} Around 4:00 a.m. on February 17, 2018, a
deputy and a sergeant from the Clermont County
Sheriff ’s Office were dispatched to appellant’s home
following the 9-1-1 call of his wife reporting that appellant was in possession of a firearm and intoxicated.
When the officers arrived at the scene, appellant’s wife

75a
advised them that everything was alright as appellant
had put the firearm away. The deputy asked her if they
could enter the home and she escorted them inside.
Once inside, the officers observed appellant coming out
of a doorway, holding a shotgun by the stock with the
barrel pointed down. Appellant told the officers that
the shotgun was unloaded and that he was unloading
it to wipe it down. The officers took possession of the
shotgun and confirmed it was unloaded. The officers
did not observe any ammunition for the shotgun.
{¶ 3} While interacting with appellant, the deputy
detected the odor of an alcoholic beverage on appellant’s person. Appellant’s eyes were bloodshot and
glassy, his speech was slurred, and he was unsteady on
his feet. Appellant was unable to complete a field sobriety test because he could not follow directions.
Furthermore, he was swaying while standing in the
instruction position. Appellant stated several times
that he was drunk. The officers described appellant as
“very intoxicated,” “very impaired,” and “highly intoxicated.”
{¶ 4} Appellant was charged by complaint with
one count of using weapons while intoxicated in violation of R.C. 2923.15, a misdemeanor of the first degree.
The matter proceeded to a bench trial. Appellant did
not testify or present witnesses on his behalf. At trial,
defense counsel stipulated that the shotgun satisfied
the statutory definition of a firearm and that it was operable.

76a
{¶ 5} Following the state’s case-in-chief, appellant
moved for acquittal pursuant to Crim.R. 29, arguing
that mere possession of a firearm is not illegal and that
Ohio citizens have the right to arm themselves. Appellant further argued that R.C. 2923.15 was unconstitutional as applied. The trial court took the matter under
advisement. In a post-trial memorandum, appellant
once again argued that the statute was unconstitutional as applied. By decision filed on June 5, 2018, the
trial court rejected appellant’s constitutional challenge
to R.C. 2923.15 and found appellant guilty as charged.
{¶ 6} Appellant now appeals, raising two assignments of error which will be considered together.
{¶ 7} Assignment of Error No. 1:
{¶ 8} THE GUILTY FINDING IS CONTRARY TO
LAW.
{¶ 9} Assignment of Error No. 2:
{¶ 10} THE USING A WEAPON WHILE INTOXICATED STATUTE IS UNCONSTITUTIONAL AS
APPLIED TO THE FACTS OF THIS CASE.
{¶ 11} Appellant challenges his conviction on two
separate grounds. Specifically, appellant challenges his
conviction on the ground the state failed to prove he
was carrying or using a firearm because “the record is
devoid of any evidence that the unloaded shotgun [appellant] was holding was carried or used as a firearm”
or that he “had committed, was committing or was
about to commit” any “crime while holding the shotgun.” Appellant further challenges his conviction on

77a
the ground R.C. 2923.15 is unconstitutional on its face
and as applied because it infringes upon his right to
keep and bear arms and defend himself.
{¶ 12} Appellant was convicted of violating R.C.
2923.15(A) which provides, “No person, while under
the influence of alcohol or any drug of abuse, shall
carry or use any firearm or dangerous ordnance.” Whoever violates the statute is “guilty of using weapons
while intoxicated[.]” R.C. 2923.15(B). “ ‘Firearm’ means
any deadly weapon capable of expelling or propelling
one or more projectiles by the action of an explosive
or combustible propellant. ‘Firearm’ includes an unloaded firearm, and any firearm that is inoperable
but that can readily be rendered operable.” R.C.
2923.11(B).
{¶ 13} “[T]he word ‘intoxicated’ as used in R.C.
2923.15(B) means the state of being ‘under the influence’ [as used] in R.C. 2923.15(A).” State v. Smith, 9th
Dist. Wayne No. 1610, 1979 Ohio App. LEXIS 11527,
*2-3 (Dec. 12, 1979). “Under the influence” has been defined as the condition in which a person finds himself
after having consumed some intoxicating beverage,
whether mild or potent, and in such quantity, whether
small or great, that its effect on the person adversely
affects his actions, reactions, conduct, movements or
mental processes or impairs his reactions to an appreciable degree, under the circumstances then existing
so as to deprive him of that clearness of the intellect
and control of himself which he would otherwise possess. State v. Eldridge, 12th Dist. Warren No. CA201502-013, 2015-Ohio-3524, ¶ 7.

78a
{¶ 14} R.C. 2923.15 regulates the carrying or use
of a firearm while intoxicated and simply prohibits an
individual from using or carrying, i.e. handling, any
firearm while under the influence of alcohol or any
drug of abuse, as defined above. Smith at *2; State v.
Waterhouse, 7th Dist. Belmont No. 93-B-26, 1995 Ohio
App. LEXIS 578, *4 (Feb. 16, 1995). Contrary to appellant’s assertion, the statute does not require that the
firearm be used as a firearm or that it be carried or
used with the intent to use it as a weapon or firearm.
Nor does the statute require the state to prove that the
intoxicated person had committed, was committing, or
was about to commit a crime while handling the firearm. Furthermore, R.C. 2923.15 does not, as suggested
by appellant, criminalize the mere presence of a firearm in the home of an intoxicated person. Nor does the
statute, as suggested by appellant, prohibit a person
from carrying or using a firearm after consuming alcoholic beverages. Rather, the statute only prohibits the
use or carrying of a firearm by a person who has imbibed to the point of intoxication.
{¶ 15} At trial, the state presented evidence that
appellant was holding the shotgun while he was “very
impaired,” “very intoxicated,” and “highly intoxicated.”
Appellant’s eyes were bloodshot and glassy, his speech
was slurred, he was unsteady on his feet, and an odor
of an alcoholic beverage was detected on his person.
Appellant himself told the officers several times that
he was drunk. Appellant further stipulated at trial
that the shotgun satisfied the statutory definition of a
firearm and that it was operable. “Once entered into by

79a
the parties and accepted by the court, a stipulation is
binding upon the parties as ‘a fact deemed adjudicated
for purposes of determining the remaining issues in
the case.’ ” Bodrock v. Bodrock, 8th Dist. Cuyahoga
No. 104177, 2016-Ohio-5852, ¶ 19, quoting Dejoseph v.
Dejoseph, 7th Dist. Mahoning No. 10 MA 156, 2011Ohio-3173, ¶ 35. Thus, the state presented evidence
that appellant carried a firearm while under the influence of alcohol. The record amply supports appellant’s
conviction under R.C. 2923.15.
{¶ 16} Appellant further challenges his conviction
on the ground R.C. 2923.15 is unconstitutional on its
face and as applied because it infringes upon his right
to keep and bear arms and defend himself pursuant to
the Second Amendment to the United States Constitution, the United States Supreme Court’s landmark decision in District of Columbia v. Heller, 554 U.S. 570,
128 S.Ct. 2783 (2008), Article I, Section 4 of the Ohio
Constitution, R.C. 9.68(A), and the Ohio Castle Doctrine (“castle doctrine”).
{¶ 17} Statutes enacted by the Ohio legislature
enjoy a strong presumption of constitutionality. State
v. Romage, 138 Ohio St.3d 390, 2014-Ohio-783, ¶ 7. The
party challenging the constitutionality of a statute
must prove that it is unconstitutional beyond a reasonable doubt. Arnold v. Cleveland, 67 Ohio St.3d 35, 39
(1993).
{¶ 18} A party may challenge a statute as unconstitutional on its face or as applied to a particular set of facts. State v. Lowe, 112 Ohio St.3d 507,

80a
2007-Ohio-606, ¶ 17. In a facial challenge, the challenging party must demonstrate that there is no set of
facts under which the statute would be valid, that is,
the statute is unconstitutional in all of its applications.
Romage at ¶ 7. “The fact that a statute might operate
unconstitutionally under some plausible set of circumstances is insufficient to render it wholly invalid.”
Harrold v. Collier, 107 Ohio St.3d 44, 2005-Ohio-5334,
¶ 37. A facial challenge permits a statute to be attacked for its effect on conduct other than the conduct
for which the defendant is charged. State v. White, 6th
Dist. Lucas, 2013-Ohio-51, ¶ 151.
{¶ 19} In an as-applied challenge, the challenging
party “bears the burden of presenting clear and convincing evidence of a presently existing set of facts that
make the statut[e] unconstitutional and void when applied to those facts.” Collier at ¶ 38. The challenging
party contends that the application of the statute in
the particular context in which he has acted, or in
which he proposes to act, would be unconstitutional.
Yajnik v. Akron Dept. of Health, Hous. Div., 101 Ohio
St. 3d 106, 2004-Ohio-357, ¶ 14. The practical effect of
holding a statute unconstitutional as applied is to prevent its future application in a similar context, but not
to render it utterly inoperative. Id.
{¶ 20} We note that appellant seemingly argues
that R.C. 2923.15 is unconstitutional as applied under
the castle doctrine because it forces him, and those
similarly situated, to choose between the constitutional right to keep arms in his house and the right
to defend his family and person under the doctrine.

81a
However, appellant did not engage in any such activity.
“A person to whom a statute may be constitutionally
applied may not be heard to challenge the statute on
the ground that it may conceivably be applied unconstitutionally to others, in other situations not before
the court.” State v. Taubman, 78 Ohio App.3d 834, 845
(2d Dist. 1992), citing Broadrick v. Oklahoma, 413 U.S.
601, 93 S.Ct. 2908 (1973). “[I]f there is no constitutional
defect in the application of the statute to a litigant, he
does not have standing to argue that it would be unconstitutional * * * in hypothetical situations.” State v.
Jones, 12th Dist. Clermont No. CA94-11-094, 1995
Ohio App. LEXIS 2555, *10 (June 19, 1995).
{¶ 21} The right to keep and bear arms is a fundamental right enshrined in federal and state constitutional law. State v. Robinson, 12th Dist. Butler No.
CA2014-12-256, 2015-Ohio-4649, ¶ 11. In Heller, the
United States Supreme Court held that the Second
Amendment to the United States Constitution confers
an individual right to keep and bear arms, and that its
“core protection” is “the right of law-abiding, responsible citizens to use arms in defense of hearth and home.”
Heller, 554 U.S. at 595, 634-635. See also McDonald v.
Chicago, 561 U.S. 742, 750, 130 S.Ct. 3020 (2010) (extending the Second Amendment right to keep and bear
arms to the states under the Fourteenth Amendment’s
Due Process Clause).
{¶ 22} The Supreme Court however emphasized
that this right is subject to certain longstanding limitations:

82a
Like most rights, the right secured by the
Second Amendment is not unlimited. From
Blackstone through the 19th-century cases,
commentators and courts routinely explained
that the right was not a right to keep and
carry any weapon whatsoever in any manner
whatsoever and for whatever purpose. * * *
Although we do not undertake an exhaustive historical analysis today of the full
scope of the Second Amendment, nothing in
our opinion should be taken to cast doubt on
longstanding prohibitions on the possession of
firearms by felons and the mentally ill, or laws
forbidding the carrying of firearms in sensitive places such as schools and government
buildings, or laws imposing conditions and
qualifications on the commercial sale of arms.
(Emphasis added.) Heller at 626-27. The court additionally cautioned that “these presumptively lawful
regulatory measures [serve] only as examples; our list
does not purport to be exhaustive.” Id. at 627 fn. 26.
{¶ 23} Although the Supreme Court did not set
forth the appropriate level of scrutiny to be applied to
restrictions to bear arms under the Second Amendment, it did reject the rational-basis test as well as an
“interest-balancing” standard as inappropriate. Heller,
554 U.S. at 628, fn. 27, 634-635. Following Heller, many
courts have applied an intermediate level of scrutiny.
See State v. Henderson, 11th Dist. Portage No. 2010P-0046, 2012-Ohio-1268; State v. Campbell, 1st Dist.
Hamilton No. C-120871, 2013-Ohio-5612; State v.

83a
Wheatley, 4th Dist. Hocking No. 17CA3, 2018-Ohio464.
{¶ 24} Under the intermediate scrutiny standard,
the legislation must (1) be narrowly tailored to serve
a significant government interest, and (2) leave open
alternative means of exercising the right. Henderson
at ¶ 52, citing Perry Ed. Assn. v. Perry Local Educators’
Assn., 460 U.S. 37, 103 S.Ct. 948 (1983). “A weaponsstatute ordinarily will survive an intermediate-scrutiny analysis if the statute is reasonably related to a
significant, substantial, or important governmental interest.” Wheatley at ¶ 17. “Intermediate scrutiny does
not demand that the challenged law ‘be the least intrusive means of achieving the relevant governmental objective, or that there be no burden whatsoever on the
individual right in question.’ ” Id., quoting United
States v. Masciandaro, 638 F.3d 458, 474 (4th Cir.
2011).
{¶ 25} The Ohio Supreme Court has similarly held
that Article I, Section 4 of the Ohio Constitution confers an individual right to keep and bear arms “for defense of self and property.” Arnold, 67 Ohio St.3d at 43.
However, “this right is not absolute” and may be limited in furtherance of valid public safety interests. Id.
at 45-46. The right to keep arms is “subject to reasonable regulation” which, under the state’s police powers,
must “bear a real and substantial relation” to secure
“the health, safety, morals, or general welfare of the
public.” Id. at 46-47. The supreme court continued,

84a
Any form of gun control legislation is destined
to attract much attention. That does not
change the fact that there must be some limitation on the right to bear arms to maintain
an orderly and safe society while, at the same
time, moderating restrictions on the right so
as to allow for practical availability of certain
firearms for purposes of hunting, recreational
use and protection.
Id. at 48. Accordingly, “the recognized state right to
bear arms is subject to reasonable regulation which advances the health, safety, morals, or general welfare of
the public.” Peoples Rights Org., Inc. v. Montgomery,
142 Ohio App.3d 443, 501 (12th Dist. 2001).
{¶ 26} “If the challenged legislation impinges
upon a fundamental constitutional right, courts must
review the statut[e] under the strict-scrutiny standard.”
Collier, 107 Ohio St.3d 44, 2005-Ohio-5334 at ¶ 39;
State v. Emery, 12th Dist. Clermont No. CA2014-09062, 2015-Ohio-1487, ¶ 13. See also State v. Aalim, 150
Ohio St.3d 489, 2017-Ohio-2956; State v. Noling, 149
Ohio St.3d 327, 2016-Ohio-8252. “Under the strictscrutiny standard, a statute that infringes on a fundamental right is unconstitutional unless the statute is
narrowly tailored to promote a compelling governmental interest.” Collier at ¶ 39, citing Chavez v. Martinez,
538 U.S. 760, 123 S.Ct. 1994 (2003).
{¶ 27} We find that R.C. 2923.15 does not violate
the right to keep and bear arms set forth in the Ohio
or federal Constitutions either on its face or as applied
to appellant. R.C. 2923.15 is narrowly tailored to serve

85a
the significant government interest of guarding public
safety and leaves open alternate means of exercising
the fundamental right to bear arms.
{¶ 28} R.C. 2923.15 prohibits the use or carrying
of any firearm by a person while he or she is under the
influence of alcohol or drugs of abuse. Thus, the statute
does not prohibit the use or carrying of any firearms,
but simply regulates the manner in which they are
handled. “[F]irearm controls are within the ambit of
the police power.” Arnold, 67 Ohio St.3d at 47. “In enacting R.C. 2923.15, the General Assembly has, in the
reasonable exercise of its police powers, determined
that in Ohio an intoxicated individual should not be
permitted to handle a firearm.” Waterhouse, 1995 Ohio
App. LEXIS 578 at *4.
{¶ 29} The state possesses a strong compelling interest in maintaining public safety and preventing gun
violence. R.C. 2923.15 seeks to prevent injury or death
resulting from the discharge of a firearm by prohibiting intoxicated individuals from using or carrying a
firearm, thereby restricting firearm handling by those
individuals in situations wherein substantial harm to
the public’s safety and welfare will likely result. R.C.
2923.15 manifests the General Assembly’s recognition
that firearms in the hands of intoxicated individuals
creates a circumstance where substantial harm could
result to the public and seeks to prevent gun violence
and preserve public safety.
{¶ 30} Our reasoning is supported by the Committee Comment to H.B. 511, which codified RC 2923.15,

86a
which provides that “[t]he rationale for the offense is
that carrying or using firearms or dangerous ordnance
without having complete control of one’s faculties presents a danger as great as driving while intoxicated.”
“[T]he section is also designed as a tool to permit law
enforcement officers to step in and prevent the commission of more serious crimes, as well as tragic accidents.” Id.
{¶ 31} Applying a similar analysis, the Seventh
Appellate District upheld the constitutionality of R.C.
2923.15 under the Ohio Constitution. Upon noting that
“the right granted by Article I, Section 4 of the Ohio
Constitution is not absolute and that the State, in the
reasonable exercise of its police power, may impose
reasonable control over that right in order to promote
the safety and welfare of its citizens,” the appellate
court found that R.C. 2923.15 was “designed to guard
against such tragedies such as [the accidental discharge of a firearm by an intoxicated person resulting
in the death of a friend].” Waterhouse, Ohio App. LEXIS
578 at *4-5. “As such, it bears a real and substantial
relation to a legitimate government objective and is
not overbroad. The danger to innocent persons is the
same whether the intoxicated person is inside his
home or in a public place.” Id. at *5.
{¶ 32} Accordingly, we find that the statutory limitation imposed upon an individual’s right to use or
carry a firearm while under the influence of alcohol or
drugs of abuse is appropriate, reasonable, and narrowly tailored to a legitimate compelling government interest in safety – the safety of the individual

87a
handling the firearm, the safety of nearby persons, and
the safety of police officers who encounter the intoxicated individual. The Second Amendment right “is not
a right to keep and carry any weapon whatsoever in
any manner whatsoever and for whatever purpose.”
Heller, 554 U.S. at 571. Similarly, “the people of our nation, and this state, cannot have unfettered discretion
to do as we please at all times. Neither the federal Bill
of Rights nor this state’s Bill of Rights, implicitly or explicitly, guarantees unlimited rights.” Arnold, 67 Ohio
St.3d at 44.
{¶ 33} We further find that R.C. 2923.15 leaves
open alternate means of exercising the fundamental
right to bear arms. Specifically, the limitation on the
right to carry or use the firearm is only temporary and
only exists during the time in which the person is intoxicated. Thus, the firearm proscription ends once the
disability is over, such as when the person sobers up
before handling the firearm. Similarly, the firearm proscription never applies when the disability is avoided,
such as when the person does not drink to the point of
intoxication.
{¶ 34} Our reasoning is supported by federal court
decisions that have roundly rejected Second Amendment challenges to a federal statute that prohibits
habitual drug users from possessing firearms. In upholding the federal statute, the United States Court of
Appeals for the Seventh Circuit observed that
unlike those who have been convicted of a felony or committed to a mental institution and

88a
so face a lifetime ban, an unlawful drug user
like Yancey could regain his right to possess a
firearm simply by ending his drug abuse. In
that sense, the restriction in [the statute] is
far less onerous than those affecting felons
and the mentally ill. * * * The prohibition in
[the statute] bars only those persons who are
current drug users from possessing a firearm[.]
(Emphasis sic.) United States v. Yancey, 621 F.3d 681,
686-687 (7th Cir. 2010). The court continued, “Thus the
gun ban extends only so long as Yancey abuses drugs.
In that way, Yancey himself controls his right to possess a gun; the Second Amendment, however, does
not require Congress to allow him to simultaneously
choose both gun possession and drug abuse.” Id. at 687.
See also United States v. Dugan, 657 F.3d 998 (9th Cir.
2011).
{¶ 35} In considering the same federal statute, the
United States Court of Appeals for the Fourth Circuit
similarly observed that the statute “does not permanently disarm all persons who, at any point in their
lives, were unlawful drug users or addicts. Instead, it
only applies to persons who are currently unlawful users or addicts.” United States v. Carter, 669 F.3d 411,
419 (4th Cir. 2012). “By initially disarming unlawful
drug users and addicts while subsequently restoring
their rights when they cease abusing drugs, Congress
tailored the prohibition to cover only the time period
during which it deemed such persons to be dangerous.”
Id. “[The statute] enables a drug user who places a

89a
high value on the right to bear arms to regain that
right by parting ways with illicit drug use.” Id. The
same logic applies to the constitutionality of R.C.
2913.15.
{¶ 36} We therefore find that appellant has failed
to show beyond a reasonable doubt that R.C. 2923.15
is unconstitutional on its face or as applied to him under either the Ohio or federal Constitutions. See also
State v. Beyer, 5th Dist. Licking No. 12-CA-27, 2012Ohio-4578 (finding that Beyer’s conviction of using a
weapon while intoxicated under R.C. 2923.15 did not
violate his Second Amendment right as applied to him
because the prohibition of using a weapon while intoxicated, even within the confines of one’s private
residence, fell within the limitations of the Second
Amendment).
{¶ 37} We next address appellant’s argument that
R.C. 2923.15 is in conflict with the public policy declaration in R.C. 9.68.
{¶ 38} R.C. 9.68(A) provides that
The individual right to keep and bear arms,
being a fundamental individual right that
predates the United States Constitution and
Ohio Constitution, and being a constitutionally protected right in every part of Ohio, the
general assembly finds the need to provide
uniform laws throughout the state regulating
the ownership, possession, purchase, other acquisition, transport, storage, carrying, sale, or
other transfer of firearms, their components,
and their ammunition. Except as specifically

90a
provided by the United States Constitution,
Ohio Constitution, state law, or federal law, a
person, without further license, permission, restriction, delay, or process, may own, possess,
purchase, sell, transfer, transport, store, or
keep any firearm, part of a firearm, its components, and its ammunition.
(Emphasis added.)
{¶ 39} R.C. 9.68 was enacted to address the “need
to provide uniform laws throughout the state” regulating ownership and possession of firearms and “the
General Assembly’s concern that absent a uniform law
throughout the state, law abiding gun owners would
face a confusing patchwork of licensing requirements,
possession restrictions, and criminal penalties as they
travel from one jurisdiction to another.” Cleveland v.
State, 128 Ohio St.3d 135, 2010-Ohio-6318, ¶ 2, 35. But
R.C. 9.68 does more than merely state the need for uniformity. Ohioans for Concealed Carry, Inc. v. Clyde, 120
Ohio St.3d 96, 2008-Ohio-4605, ¶ 20. While recognizing the right to keep and bear arms as a “fundamental
individual right” and “a constitutionally protected
right in every part of Ohio,” the statute plainly allows
the state to regulate certain aspects of firearm ownership, transfer, possession, transporting, or use by
providing that a person may own, possess, or keep any
firearm “[e]xcept as specifically provided by * * * state
law, or federal law[.]” “Simply put, the General Assembly, by enacting R.C. 9.68(A), gave persons in Ohio the
right to carry a handgun unless federal or state law
prohibits them from doing so.” Clyde at ¶ 20. Thus,

91a
pursuant to R.C. 9.68, “federal or state regulations can
limit an Ohioan’s individual right to bear arms.” Cleveland at ¶ 1. R.C. 2923.15 is such a state law. R.C. 9.68,
therefore, affords no protection to appellant from conviction for carrying a shotgun while intoxicated.
{¶ 40} Finally, we address appellant’s argument
that R.C. 2923.15 is in conflict with the castle doctrine.
Appellant asserts that under R.C. 2923.15, an intoxicated person, while in his home, would never be able to
use a firearm to defend himself or his family.
{¶ 41} R.C. 2901.09(B) “codifies a form of selfdefense as the castle doctrine” and states that “a person who lawfully is in that person’s residence has no
duty to retreat before using force in self-defense, defense
of another, or defense of that person’s residence[.]”
State v. Barnette, 12th Dist. Butler No. CA2012-05-099,
2013-Ohio-990, ¶ 56. Similarly, R.C. 2901.05(B)(1) provides that a defendant is entitled to a presumption of
“self-defense or defense of another” if the evidence
shows that the defendant used defensive force against
another person who was “in the process of unlawfully
and without privilege to do so entering, or ha[d] unlawfully and without privilege to do so entered” the defendant’s residence or vehicle.
{¶ 42} Nothing in R.C. 2923.15 circumscribes the
availability of the castle doctrine. The castle doctrine
simply creates a presumption that the defendant acted
in self-defense when he or she uses deadly force
against a person who has entered or is entering the
defendant’s home or vehicle without privilege to do so.

92a
The doctrine remains available to an intoxicated person using defensive force with a firearm in defending
himself or another in his residence or vehicle. Whether
such would violate R.C. 2923.15 is a different matter
and is no different than when a defendant under disability exercises his rights under the castle doctrine.
R.C. 2923.15 therefore does not conflict with the castle
doctrine.
{¶ 43} In light of the foregoing, we find that appellant’s conviction is not contrary to law and that R.C.
2923.15 does not violate the Ohio or federal Constitutions.
{¶ 44} Appellant’s two assignments of error are
overruled.
{¶ 45} Judgment affirmed.
S. POWELL, P.J., and PIPER, J., concur.

93a
CLERMONT COUNTY MUNICIPAL COURT
BATAVIA, OHIO

:

CASE NO:
2018 CR B 00659

VS

:

DECISION

FREDRICK M. WEBER,

:

(Filed Jun. 5, 2018)

STATE OF OHIO,
PLAINTIFF

DEFENDANT

:

:

This matter is here today for a Decision regarding a
Bench Trial that was held on April 26, 2018. At that
hearing, the State of Ohio called three witnesses to the
stand, Deputy Shouse, Sgt. Jarman and Sgt. Baarlear,
all with the Clermont County Sheriff ’s Office. Deputy
Shouse testifier’ he has been employed in that capacity
since 2011. He also testified regarding his training in
the detection of persons who are intoxicated. He indicated on February 17, 2018, he was dispatched to 3324
S.R. 756, Felicity, Clermont County, Ohio, at approximately 4;00 A.M. Upon responding to that location, he
spoke with the complainant, Ms. Brown, who indicated, “everything is ok, he put it away.” At that time,
the deputy observed the defendant with a shotgun in
his hand, holding it by the stock with the barrel facing
the ground. During his interaction with the defendant,
Deputy Shouse noticed the defendant’s speech was
slurred as the defendant told him, “the firearm is not
loaded,” and “he was unloading the firearm to wipe it
down.” Based upon these circumstances, the deputy
had the defendant perform the HGN Standardized

94a
Field Sobriety Test Deputy Shouse testified the defendant would not follow the directions and noticed the
smell of alcohol coming from the defendant. The defendant also told the deputy, “I’m drunk.” Based upon
these observations, Deputy Shouse formed the opinion
the defendant was under the influence of alcohol and
took the firearm from the defendant.
Sgt. Jarman was the state’s second witness. He testified that on February 17, 2018, he also responded to
the same location based upon a call from dispatch. Sgt.
Jarman has been employed with the Clermont County
Sheriff ’s Office for approximately 23 years and was a
Road Patrol Supervisor on that date. Sgt. Jarman indicated he had contact with the defendant and believed
he was very impaired from the consumption of alcohol.
He based that conclusion upon the following observations; glassy/bbodshot eyes, swaying, slurred speech.
Sgt. Jarman also testified as to his training regarding
the detection of persons who are intoxicated from alcohol and believed the defendant to be highly Intoxicated
that night.
The last witness was Sgt. Baarlear of the Clermont
County Sheriff ’s Office. Sgt. Baarlear has been employed with that department for over 26 years and has
specific training regarding firearms. As he testified the
defendant stipulated that the firearm in question was
operable and was test fired by Sgt. Baarlear.
At that hearing, this Court had the opportunity to observe the demeanor and manner in which the witnesses testified. The Court finds their testimony to be

95a
reasonable and credible. In addition, the Court has reviewed state’s exhibits “A” and “B.” Based upon a review of the record, exhibits arguments of Counsel and
applicable case law, this Court finds the State of Ohio
has proven beyond a reasonable doubt that the defendant on February 17,2018, and in Clermont County,
Ohio, while under the influence of alcohol, did carry
any firearm and thereby finds him guilty of ORC
2923.15, as a misdemeanor of the first degree.
The defendant argued that 2923.15, as written, is unconstitutional for a plethora of reasons. However, this
Court finds those arguments to be unpersuasive. Additionally, the defendant asked the Court to apply the
decision in People v. Deroche, 299 Mich. App. 301, in
reaching the conclusion regarding the validity of that
statute. This Court believes there is a distinctive factor
in Deroche and the case at bar. Specifically, in Deroche
the defendant was convicted for being in constructive
possession of a firearm, while in this case, the defendant, Mr. Weber, was in actual possession of the firearm.
Instead, this Court is persuaded by the holdings in
State v. Waterhouse, 1995 WL 70125 and State v.
Beder, 2012 WL 4713905. Each of those cases dealt
with facts that are similar to the case at bar. Both cases
involve a person who was in possession of a firearm,
inside their own home, while intoxicated. In both cases,
the Courts held ORC 2923.15 to be constitutional and
affirmed the convictions.

96a
SO ORDERED.
6/5/18
DATE

/s/ Jason E. Nagel
Jason E. Nagel, Judge

97a
Second Amendment to the United States Constitution
A well regulated Militia, being necessary to the security of a free State, the right of the people to keep and
bear Arms shall not be infringed.
Fourteenth Amendment
Section 1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside.
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
Section 2
Representatives shall be apportioned among the several States according to their respective numbers,
counting the whole number of persons in each State,
excluding Indians not taxed. But when the right to vote
at any election for the choice of electors for President
and Vice-President of the United States, Representatives in Congress, the Executive and Judicial officers of
a State, or the members of the Legislature thereof, is
denied to any of the male inhabitants of such State,
being twenty-one years of age, and citizens of the

98a
United States, or in any way abridged, except for participation in rebellion, or other crime, the basis of representation therein shall be reduced in the proportion
which the number of such male citizens shall bear to
the whole number of male citizens twenty-one years of
age in such State.
Section 3
No Person shall be a Senator or Representative in
Congress, or elector of President and Vice-President, or
hold any office, civil or military, under the United
States, or under any State, who, having previously
taken an oath, as a member of Congress, or as an officer of the United States, or as a member of any State
legislature, or as an executive or judicial officer of any
State, to support the Constitution of the United States,
shall have engaged in insurrection or rebellion against
the same, or given aid or comfort to the enemies
thereof. But Congress may by a vote of two-thirds of
each House, remove such disability.
Section 4
The validity of the public debt of the United States, authorized by law, including debts incurred for payment
of pensions and bounties for services in suppressing
insurrection or rebellion, shall not be questioned. But
neither the United States nor any State shall assume
or pay any debt or obligation incurred in aid of insurrection or rebellion against the United States, or any
claim for the loss or emancipation of any slave; but all

99a
such debts, obligations and claims shall be held illegal
and void.
Section 5
The Congress shall have the power to enforce, by appropriate legislation, the provisions of this article.
Ohio Revised Code § 2923.15. Using weapons
while intoxicated.
(A) No person, while under the influence of alcohol or
any drug of abuse, shall carry or use any firearm or
dangerous ordnance. (B) Whoever violates this section
is guilty of using weapons while intoxicated, a misdemeanor of the first degree
Effective: January 1, 1974 Legislation: House Bill 511
– 109th General Assembly

